<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2013</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2013

                              ----------                              


                       WEDNESDAY, MARCH 28, 2012

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:03 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairman) 
presiding.
    Present: Senators Mikulski, Brown, Hutchison, Shelby, and 
Cochran.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

STATEMENT OF CHARLES F. BOLDEN, JR., ADMINISTRATOR

            OPENING STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. The subcommittee on Commerce, Justice, 
Science, and Related Agencies (CJS) will come together, and we 
will be taking the testimony of the Administrator of the 
National Aeronautics and Space Administration (NASA), Charles 
F. Bolden.
    But before we do, I want to say that this is the last 
public hearing of Senator Kay Bailey Hutchison. This is not her 
last appearance before the subcommittee, but it's our last 
public hearing on CJS appropriations.
    And as her good friend and colleague, I have a present for 
you. This is not a goodbye gift. This is a commemorative gift. 
But we couldn't let this gathering of people, particularly from 
America's space program, its leadership, those who are 
interested in the space community, without taking this 
opportunity to just thank you for being a really great senator 
from Texas, a really great Senator for America and America's 
future, science, technology, a real advocate for the space 
program, keeping an eye on the bottom line. We just wanted to 
let you know this subcommittee, its members and all of us just 
think the world of you.
    Senator Hutchison. I thank you very much.
    Senator Mikulski. So let me present that to you. Take a 
peek.
    Senator Hutchison. Okay. Thank you very much.
    Senator Mikulski. No, it didn't come from him.
    Senator Hutchison. No, I know. I never get gifts from him.
    Senator Mikulski. He's going to give you one in a minute.
    Senator Hutchison. Oh, gosh, this is great.
    Senator Mikulski. Wait until you see this. This is----
    Senator Hutchison. I would rather have one from him.
    Senator Mikulski. This is so cool.
    Senator Hutchison. This is cool. That is really cool.
    Senator Mikulski. It is a crystal rocket.
    Senator Hutchison. It is.
    Senator Mikulski. It's the space shuttle, made here in the 
United States of America, on time.
    Senator Hutchison. And the time is right.
    Senator Mikulski. It's on time, it's on time.
    Senator Hutchison. I love it. Isn't that neat? Yes, I love 
it. Thank you.
    Senator Cochran. If you put it up here, it might launch.
    Senator Hutchison. Well, I love it, and thank you for the 
commemoration. I did not realize this would be our last 
official hearing, but we do have a lot of work to do, and I 
can't tell you how much I appreciate the relationship and the 
support that we have from our chairman and the members of this 
subcommittee. I think we've done great things for NASA, and 
we've been creative, and I can't tell you how much I appreciate 
the ability for us to be on the same wavelength and really 
accomplish something for our pre-eminence in space. So, thank 
you very much.
    Senator Mikulski. Senator Hutchison, it is our last 
scheduled hearing on the fiscal year 2013 CJS appropriations. 
The chair reserves the right to conduct other hearings as might 
be necessary as our process continues onward, or if there is a 
special event that would require special attention. So that's 
our last scheduled hearing, but we know you're going to be in 
the thick of it on this bill, all the way up to the President 
signing it.
    Senator Hutchison. For sure.
    Senator Mikulski. We're going to get underway pretty 
quickly, and we want to thank Administrator Bolden for being so 
flexible. This hearing was originally scheduled for Thursday, 
and because of other hearings at this time, we asked to 
rearrange this. So we thank you for your courtesy.
    What we're going to do today is have open statements from 
Senator Hutchison and myself, then go to questions. We'll 
follow the 5-minute rule, and look forward to hearing from the 
Administrator.
    So today we want to welcome Administrator Bolden, 
testifying on behalf of the fiscal year 2013 NASA 
appropriations.
    As chairwoman, I have three priorities for NASA: make sure 
we have a balanced space program that will make NASA move 
forward with the programs that the Congress has authorized and 
funded; we want NASA to be an economic engine, out-innovating, 
out-educating, and out-building what we need to do to keep 
America pre-eminent in space; also, as a duty to the taxpayer, 
we continue our rigorous oversight and accountability to make 
sure taxpayers' dollars are spent wisely and to acknowledge the 
fact that we need to focus on a more frugal Government. I want 
to make sure that NASA has what it takes to carry out its 
mission, explore the universe, understand and protect our 
planet, and create new knowledge and new technologies that lead 
to breakthroughs.
    The President's budget for NASA is $17.7 billion. I want 
the subcommittee to note this is $89 million below the fiscal 
year 2012 level, and in the last 3 years NASA has already been 
cut by $1 billion. Within the request, NASA outlines three top 
priorities: the Space Launch System (SLS) rocket and the Orion 
capsule, I know of great interest to the members; supporting 
the International Space Station (ISS) with commercial flights 
for cargo and hopefully one day, astronauts; and building the 
James Webb Space Telescope (JWST), but also continuing our 
focus on science.
    NASA will be asked to accomplish these priorities with far 
less than in the last NASA Authorization Act. In supporting 
these three priorities, NASA has made some tough choices. 
Science is cut by $179 million less than the fiscal year 2012 
level. The funding for the SLS and Orion is $291 million below 
fiscal year 2012. And NASA education funding, something I know 
is very important to the Administrator, is cut by $28 million.
    Additionally, if we don't avoid a sequester, NASA will be 
cut by another 8 percent across the board. We will want to hear 
from Administrator Bolden on how a cut like that will impact 
the NASA ability to carry out its mission.
    Oh, man, that pollen is--I hope the space capsules are 
cleaner than the Dirksen Building here.
    This subcommittee has always worked to make sure we have a 
balanced space program in science aeronautics, a reliable 
transportation system, and human space flight. For science, 
this budget will keep NASA's near-term launches on track. This 
is good news--important side missions to look at our solar 
system, understand the Sun, and protect our planet.
    I'm troubled that the budget does not invest adequately in 
future missions, the highest science priorities that are 
identified by the National Academies in their decadal surveys. 
We're concerned about the cuts in Planetary Science, Mission to 
Planet Earth, dark energy, and Heliophysics. We'll explore that 
more in the questions.
    We know that NASA is an economic engine, and we hope to 
hear more about what SpaceX and Orbital are doing and whether 
we're going to be on time and online.
    I just want to close by commenting on accountability and 
oversight. First of all, we need to compliment NASA for 
achieving for the first time since 2002 a clean financial 
audit, and I know that was due to your stewardship and 
insistence, Mr. Administrator, and we're counting on you and 
your team to continue vigilant oversight and accountability.
    I appreciate NASA's effort to also re-evaluate the JWST. 
We've got to make sure we stay online and to keep the project 
underway.

                           PREPARED STATEMENT

    The Government Accountability Office's most recent 
assessment of NASA's large projects found that NASA's large 
programs are often over-budget and behind schedule. They can do 
better, and we'll be able to talk about it.
    I ask unanimous consent that my full statement be in the 
record.
    [The statement follows:]

           Prepared Statement of Senator Barbara A. Mikulski

    Today the Commerce, Justice, Science, and Related Agencies 
Subcommittee welcomes National Aeronautics and Space Administration 
(NASA) Administrator Charles F. Bolden, Jr. who will be testifying 
about NASA's fiscal year 2013 budget request.
    As chairwoman, I have three priorities for NASA. First, is to 
implement a balanced space program. How will NASA move forward with the 
program the Congress authorized and funded?
    Second, is to be an economic engine. How is NASA putting America to 
work out-innovating, out-educating, and out-building? Third, is 
oversight and accountability. How is NASA ensuring our tax dollars are 
spent wisely?
    I want to make sure that NASA has what it needs to carry out its 
mission, explore the universe, understand and protect our planet, and 
create new technologies that lead to new breakthroughs creating jobs of 
the future.
    The President's budget request for NASA is $17.7 billion, which is 
$89 million below the fiscal year 2012 level. In the last 3 years, 
NASA's appropriation has been cut by $1 billion. Within the request, 
NASA outlines three top priorities:
  --Space Launch System (SLS) rocket and Orion capsule;
  --supporting the International Space Station (ISS), including 
        commercial flights for cargo and astronauts; and
  --building the James Webb Space Telescope (JWST).
    NASA will be asked to accomplish those priorities with less, far 
less, than envisioned in the last NASA authorization act. In supporting 
those three priorities, NASA has made some tough choices. Science is 
cut $179 million below the fiscal year 2012 level; funding for SLS and 
Orion is reduced below the fiscal year 2012 level; and NASA education 
funding is cut $38 million or 28 percent.
    Additionally, if we do not avoid a sequester NASA will be cut by 
another 8 percent across the board. We want to hear from Administrator 
Bolden on how a cut like that will impact NASA's ability to carry out 
its mission.
    This subcommittee has always worked to preserve a balanced space 
program with science, aeronautics, and sustainable human flight. For 
science, this budget will keep NASA's near-term launches on track. This 
is good news. This supports important science missions to explore our 
solar system and the universe, understand the Sun, and observe and 
protect our planet.
    But I am troubled that the budget does not invest adequately in 
future missions--the next highest science priorities identified by the 
National Academies' decadal surveys. We must keep making progress on 
the Academies' recommendations, now and in the future.
    This year, we hope to see both SpaceX and Orbital launch cargo to 
ISS, results of a partnership between NASA and the private sector. Once 
Orbital starts launching out of Wallops there will be 400 new high-tech 
jobs on the Eastern Shore. SpaceX has created 1,500 jobs since it 
became part of the commercial cargo program in 2006.
    Nationwide, aerospace industries create a $50 billion trade surplus 
for the United States, and NASA should be a partner with them. Our new 
commercial space rockets can launch a new industry in places like 
Wallops Island. NASA-developed capabilities, like the satellite 
servicing group at Goddard, have the potential to create jobs for today 
and jobs for tomorrow--innovation jobs that can't be outsourced. That's 
why we have a strong coalition of space Senators, because we believe in 
NASA's ability to bring out the best of America.
    But to keep that support, NASA has got to be more frugal. Last 
year, NASA achieved a clean financial audit for the first time since 
2002. We are counting on NASA to remain vigilant on oversight and 
accountability.
    I appreciate NASA's efforts to re-evaluate JWST. Now NASA must keep 
to the plan. The General Accounting Office's most recent assessment of 
NASA's large projects found NASA's large programs--other than JWST--
average $79 million or 15 percent more than the budget and 8 months 
behind schedule.
    NASA has to do better. More than 80 percent of NASA's funding is 
awarded by contract. That's more than $14 billion of NASA's fiscal year 
2013 request. NASA's Inspector General has identified project and 
contract management as top challenges for the agency. This subcommittee 
will be a watchdog and we expect NASA to implement the Inspector 
General's recommendations.
    Frugal times demand a frugal space agency. Our space programs must 
be affordable, balanced, and wisely managed to gain support in frugal 
times. But make no mistake, NASA's mission is worth our passion.

    Senator Mikulski. We have many members here, and I know we 
will want to proceed.
    Senator Hutchison, do you have a statement?

               STATEMENT OF SENATOR KAY BAILEY HUTCHISON

    Senator Hutchison. Thank you, Madam Chairman.
    Madam Chairman, I am concerned about the budget that the 
Administrator is putting forward today, and I want to go over 
just some of the agreements that we have made in the past and 
what the result of those agreements is in your budget, Mr. 
Administrator.
    Your testimony for the subcommittee lays out what NASA 
claims are its priorities, but what is said and what is being 
proposed don't really match. NASA's priorities, as we all 
agreed to in a meeting in my office just a few months ago, 
were, number one, the JWST, and it has been thoroughly reviewed 
and appropriately funded. It is a priority which is funded as 
anticipated.
    The second priority is the SLS and the Orion Capsule, which 
were studied inside and outside of NASA, and again 
independently before finally being allowed to move forward. The 
resulting independent analysis said the budget assumed in that 
analysis for the first 3 to 5 years, which was what we had 
agreed would be the amount, was accurate and provided what was 
needed to maintain schedule.
    So, of course, I was surprised when I got the call that 
NASA was going to cut this part of the budget by $170 million. 
This is a case where NASA has chosen to say it's a priority but 
has deliberately cut the funding that was assumed to assure 
that it could maintain its schedule.
    So this is, of course, a great concern to me and to the 
Members of Congress who agreed with these priorities and 
thought we had the agreement from NASA.
    Number three, the final priority is Commercial Crew, which 
receives a proposed increase of 104 percent more than last 
year. This is being asked for without any type of independent 
cost verification for the program and, at $830 million, exceeds 
the authorized amount for Commercial Crew by $330 million.
    Now, many in the space community say that a lot is riding 
on the upcoming cargo demonstration flight next month, and the 
fate of Commercial Crew is tied to its success. I think they're 
wrong. I think they should be saying it's about time, that we 
have been waiting for years longer than we have been promised 
by NASA and its commercial partners for this launch, and we 
hope the delay will produce success.
    But even though Commercial Crew continues to struggle to 
attain its goals, I recognize its importance. I do support 
Commercial Crew. However, I think NASA is continuing to throw 
money at too many companies with a hope of flying astronauts 
and not doing what it has done with the SLS and the launch 
vehicle, which is to undertake a study for the Commercial Crew, 
similar to what you have done in Orion and SLS, including an 
independent analysis of options, and then funding the programs 
that NASA believes have the most hope of gaining what we all 
want, which is the quickest American-provided commercial crew 
vehicle to ISS as possible.
    Members of Congress are already coalescing around NASA 
choosing no more than two companies, providing competition as 
well as funding realities that we see in our budget, and not 
stealing from the long-term future, which is Orion and the 
launch vehicle.
    If we provided the authorized level for this year for 
Commercial Crew and add the funds from last year that have yet 
to be spent, NASA would have more than $900 million available 
for Commercial Crew selections. That amount of funding fits 
within NASA's stated estimated cost of $300 to $500 million per 
Commercial Crew entrant, if two are selected. If you adhere to 
the three or four, you're going to go over the budget, you're 
going to continue to cut back on Orion and the launch vehicle, 
and it's going to mean that our long-term future is 
jeopardized.
    So I hope, Mr. Administrator, that you and the NASA 
personnel who have done such a great job for our country 
through all of these years of space exploration will go back to 
the drawing board and support Commercial Crew in a fiscally 
responsible way so that we can all, once again, be on the same 
page for our goals, which is a Commercial Crew vehicle that 
will go to ISS within a couple of years, at the same time that 
we are using the expertise from that and moving forward 
expeditiously for the longer-term lower-Earth orbit (LEO) 
ventures that will spell the real long-term future for the 
science and technology that we hope to gain.
    Thank you, Madam Chairman.
    Senator Mikulski. I liked it.
    We're going to turn to Administrator Bolden for his 
testimony, and then after the conclusion of his testimony, 
Senator Cochran, noting you are the vice chairman of the full 
Appropriations Committee and the many demands on your time, 
we'll turn to you for the first set of questions. Will that 
help you out?

              SUMMARY STATEMENT OF CHARLES F. BOLDEN, JR.

    Mr. Bolden. Madam Chair, Senator Hutchison and members of 
the subcommittee, today it's my pleasure and my privilege to 
discuss the President's fiscal year 2013 budget request for 
NASA. All of us at NASA are very grateful to the Congress and 
to this subcommittee for the strong level of support we 
continue to receive.
    And before I press on any more, I have to join the chair in 
recognizing Senator Hutchison for your long-term commitment to 
NASA, as well as to this Congress. Although this may be the 
last official public meeting of this subcommittee, I'm certain 
that this will not be the last time that you and I spend time 
together. I really look forward to it.
    But we have benefited from your guidance and your 
commitment since your election in 1993, and you have always 
been a strong advocate for human space flight and for the 
Johnson Space Center, a place that I called home at one time. 
You have been one of the Congress' strongest proponents for a 
space station, and you have insisted that we enhance its 
utilization, and you were the one that forced us or supported 
us in making it a national laboratory. You were a key champion 
for the Alpha Magnetic Spectrometer and for SLS and the Multi-
Purpose Crew Vehicle (MPCV) and for full utilization of ISS, 
and I really want to thank you personally.
    Your leadership in the appropriations action brought all of 
us together in your office, as you said, on a bipartisan basis 
with then Director of the Office of Management and Budget, Jack 
Lew, to get the three priorities for NASA that we have, at your 
insistence, that we prioritize. Otherwise, we were going 
nowhere.
    So I sincerely thank you on behalf of all of the NASA 
family, and I look forward to continuing to work with you until 
the last day you're in office, and then even after that, 
because I know you will continue to make your mark on the space 
program. But, thank you very much personally.
    Our requested budget, as has already been mentioned, was 
$17.7 billion, and this will enable NASA to continue to execute 
bipartisan space exploration as planned and agreed to by the 
President and the Congress in 2010. Despite the constrained 
fiscal environment facing the nation, this request supports an 
ambitious civil space program that puts us on a path to 
achieving a truly exciting set of goals, to send humans to an 
asteroid, and ultimately to Mars, and to broaden human activity 
in LEO.
    The fiscal year 2013 request supports all of the key 
priorities agreed upon by the President and congressional 
leadership. First, American astronauts continue to live and 
work in space onboard the now-completed ISS, conducting 
research to benefit life here on Earth and prepare us for deep 
space human exploration. NASA is committed to making this 
national resource available to broader research communities.
    We are also committed to ensuring that American companies 
launching from U.S. soil transport our astronauts and their 
cargo to the ISS. This year we will see the first commercial 
cargo flights to ISS, and with the approval of the funding 
request, we're on track to have an American company or 
companies transporting our astronauts to the ISS by 2017.
    Second, NASA is on track to develop a flexible deep space 
launch system that will be the most capable in history. We are 
making remarkable progress on contracts and design for the SLS 
heavy-lift rocket and the MPCV, Orion, which will carry 
American astronauts beyond LEO and into deep space within the 
next decade. Our fiscal year 2013 budget request supports our 
plan for an un-crewed test flight in 2017, and a crew test 
mission by 2021.
    Third, we continue progress toward a launch of the world's 
most advanced telescope, the JWST, in 2018. NASA's budget 
request supports a portfolio of innovative science missions 
resulting in a stream of data from orbits around the Sun, 
Mercury, the Moon, the asteroid Vesta, Mars, and Saturn. We now 
have missions on the way to Jupiter, Pluto, and Mars. Sixteen 
Earth science missions currently study the Earth.
    As this subcommittee knows, tough choices had to be made, 
so we will not be moving forward with the 2016 and 2018 exo-
Mars missions we had been planning with the European Space 
Agency (ESA). Instead, NASA is developing a new integrated 
strategy for sequence of strategically selected missions that 
increase scientific knowledge, advance key technologies, and 
inform and enable human exploration goals. Our plan, including 
the framework for our mission to take advantage of the 2018 to 
2020 launch opportunity, is targeted for completion hopefully 
in time to support the fiscal year 2013 appropriations process.
    As we finalize that, we will coordinate extensively with 
the science community, our international partners and, of 
course, the Congress. The fiscal year 2013 budget request 
continues to support ambitious Mars exploration, including two 
spacecraft currently orbiting Mars, the Opportunity rover on 
the surface, the Mars Science Laboratory, Curiosity, and the 
planned 2013 Mars Atmosphere and Volitle EvolutioN (MAVEN) 
mission to explore Mars's upper atmosphere.

                           PREPARED STATEMENT

    The fiscal year 2013 budget request also supports continued 
advances in new aviation, science, and space technologies, 
absolutely essential to enable NASA to achieve its ambitious 
goals. With the 2013 request, NASA will conduct aeronautics 
research to enable the realization of NASA's Next Generation 
Air Transportation System, or NextGen, and use NASA's education 
programs to inspire the next generation of scientists and 
explorers.
    NASA is grateful to the American people and to you on this 
subcommittee for your continued support in these challenging 
times. I thank you and I look forward to your questions.
    [The statement follows:]

              Prepared Statement of Charles F. Bolden, Jr.

    Madam Chair and members of the subcommittee, today it is my 
privilege to discuss the President's fiscal year 2013 budget request 
for National Aeronautics and Space Administration (NASA). Our requested 
budget of $17.7 billion will enable NASA to execute the balanced 
program of science, space exploration, technology, and aeronautics 
agreed to by the President and a bipartisan majority of the Congress.
    Despite the constrained fiscal environment facing the Nation, this 
request supports a robust civil space program that puts us on a path to 
achieving a truly exciting set of goals. We are working to send humans 
to an asteroid and ultimately to Mars, to peer deep into space to 
observe the first galaxies form, and to broaden human activity in low-
Earth orbit (LEO). We have completed assembling and outfitting of the 
U.S. segment of the International Space Station (ISS), allowing us to 
focus on full utilization of the station's research capabilities. NASA 
is making air travel safer and more efficient, learning to live and 
work in space, and operating a fleet of spacecraft to investigate the 
Earth, the solar system, and the universe.
    The fiscal year 2013 request supports the implementation of key 
priorities for NASA.
    First, since the historic construction of the ISS was completed in 
2011, and now that all the international partners have agreed to its 
extension to at least 2020, we must enhance its utilization to ensure 
the success of this national laboratory. For more than 11 years, 
international crews of space explorers have been living in orbit, both 
building the ISS and conducting a diverse research program 
continuously. NASA is committed to making this national resource 
available to the broader scientific and commercial research community. 
Key to its sustainment is the availability of a U.S. commercial crew 
and cargo delivery capability as soon as possible. NASA is working with 
American companies to establish the next generation of safe and 
efficient vehicles for access to LEO and the ISS. In calendar year 
2012, we will see the first commercial cargo flights to the ISS, 
demonstrating the innovation and capabilities of our industry partners 
and providing a path forward to ease our sole reliance on Russian 
transport of astronauts. We will continue to work with our industry 
partners to develop end-to-end systems for transporting crew and cargo 
to orbit. I am committed to ensuring that American companies, launching 
from U.S. soil, are providing the cargo and crew transportation 
services that we need to keep the ISS functioning. We are making steady 
progress on these launch services. Later this spring and summer, we 
expect that both of our private company partners, SpaceX and Orbital 
Sciences, will complete demonstration flights of their cargo vehicles 
to station and actually berth with the ISS, marking a major milestone 
in our goal to establish commercial space capabilities for LEO travel. 
Some modification of the Iran, North Korea, Syria Non-proliferation Act 
(INKSNA) provisions will likely be required for the continued operation 
of ISS and other space programs after 2016. The administration plans to 
propose appropriate provisions and looks forward to working with the 
Congress on their enactment.
    Second, with the fiscal year 2013 budget request, NASA is moving 
out on plans to develop a flexible launch system that will ultimately 
be the most capable in history. The Space Launch System (SLS) rocket 
and the Orion Multi-Purpose Crew Vehicle (Orion MPCV) will carry 
American astronauts beyond LEO and into deep space within the next 
decade. Following a thorough analysis of alternatives, NASA has 
established architecture for SLS and the Orion MPCV. In recent months 
we have continued to push forward with contracting and design efforts 
to make this system a reality. At the same time, we are moving forward 
on a critical effort to develop the technologies and capabilities 
required to support our ambitious exploration goals. Our fiscal year 
2013 budget request supports our plans for an uncrewed SLS test flight 
in 2017 and a crewed test mission by 2021.
    Third, we plan to continue progress toward the launch of the 
world's most advanced telescope in 2018. The James Webb Space Telescope 
(JWST) will operate deep in space to orbit the Sun nearly 1 million 
miles from Earth. From that vantage point, JWST will look out into 
space and back in time almost as far as it is possible to look. Over 
the past year, NASA has engaged in a thorough review of JWST, made 
important adjustments to management, and put the project on a sound 
financial footing. Since we completed this new plan, the project has 
met 19 of 20 fiscal year 2011 milestones (with one deferred without 
impact), and has met all fiscal year 2012 milestones to date on or 
ahead of schedule. NASA is confident that the fiscal year 2013 request 
supports a 2018 launch of JWST.
    Fourth, the fiscal year 2013 budget request supports continued 
advances in new technologies. The National Research Council (NRC) has 
determined that future U.S. leadership in space requires a foundation 
of sustained technology advances, but that the U.S. space program is 
now living on the innovation funded in the past. Our focus on new space 
technologies is absolutely essential to enable NASA to achieve its 
ambitious goals. At the same time, NASA technology research seeds 
innovation, supports economic vitality and helps to create new jobs and 
expanded opportunities for a skilled workforce. Space technology 
investments address long-term agency technology priorities and 
technology gaps identified by NASA Mission Directorates and within the 
agency's draft space technology roadmaps. On February 1, 2012, NRC 
released its final review of NASA's Draft Space Technology Roadmaps. 
The report, which notes that NASA's technology base is largely depleted 
and identifies 16 top-priority technologies necessary for NASA's future 
missions, which also could benefit American aerospace industries and 
the Nation. This NRC assessment will help guide NASA's technology 
priorities in the years to come.
    NASA's fiscal year 2013 budget request supports a portfolio of 
innovative science missions that will explore the diverse planetary 
bodies of our solar system, unravel the mysteries of our universe and 
provide critical data about our home planet. Currently operating 
missions continue to return a stream of data from orbits around the 
Sun, Mercury, the Moon, the asteroid Vesta, Mars, and Saturn. We now 
have missions on the way to Jupiter, Pluto, and Mars. Sixteen Earth 
Science missions in orbit study the Earth as an integrated system. The 
Hubble, Spitzer, Chandra, and Fermi space telescopes continue to make 
groundbreaking discoveries on an almost daily basis. In calendar year 
2011, the MESSENGER spacecraft entered orbit around Mercury, Ebb and 
Flow began mapping the gravity field of the Moon, and Juno launched on 
its way to Jupiter. Also in 2011, Aquarius produced the first global 
view of ocean surface salinity and the Suomi National Polar-Orbiting 
Partnership (SNPP) satellite began making observations of Earth's 
weather and climate. In 2012, we will launch the Nuclear Spectroscopic 
Telescope Array to study massive black holes, supernovae and other 
high-energy sources in the universe, and will launch the Radiation Belt 
Storm Probes into Earth's Van Allen belts. In 2013, we will launch the 
next land observing mission (the Landsat Data Continuity Mission) and 
complete environmental testing of the Global Precipitation Measurement 
mission, the Lunar Atmosphere and Dust Environment Explorer (LADEE) and 
the Mars Atmosphere and Volatile EvolutioN (MAVEN) mission.
    In view of these key priorities for NASA and of our constrained 
fiscal environment, we will not be moving forward with the 2016 and 
2018 ExoMars missions that we had been studying with the European Space 
Agency (ESA). Instead, NASA is developing a new, integrated strategy 
for Mars missions to ensure that the next steps for Mars exploration 
will support science, as well as longer-term human exploration goals, 
and take advantage of advanced space technology developments. NASA will 
complete this integrated plan, including the framework for a mission to 
take advantage of the 2018 or 2020 launch opportunities, no later than 
this summer and, hopefully, in time to support the fiscal year 2013 
appropriations process. The fiscal year 2013 request supports this 
approach, and this process will be informed by coordination with the 
science community and our international partners. The fiscal year 2013 
budget request continues to support robust Mars exploration, including 
two spacecraft orbiting Mars, the Opportunity rover on the surface, a 
multi-year exploration of Mars by the Curiosity Mars Science 
Laboratory, and the MAVEN mission to explore the Mars upper atmosphere. 
The August landing of Curiosity will be among the most difficult 
technical challenges that NASA has ever attempted and Curiosity's 
mission of exploration will far eclipse anything humanity has attempted 
on the surface of Mars in the past. We look forward to receiving a 
treasure trove of data from the surface of Mars to help answer 
questions about its past and present habitability.
    With the fiscal year 2013 request, NASA will conduct aeronautics 
research to enable the realization of the Nation's Next Generation Air 
Transportation System (NextGen), and the safer, more fuel efficient, 
quieter, and environmentally responsible aircraft that will operate 
within NextGen. Through the aeronautics research we conduct and sponsor 
with universities and industry, NASA helps to develop the technology 
that enables continuous innovation in aviation. As a result, U.S. 
companies are well-positioned to build on discoveries and knowledge 
resulting from NASA research, turning them into commercial products 
that benefit the quality of life for our citizens, provide new high-
quality engineering and manufacturing job opportunities, and enables 
the United States to remain competitive in the global economy.
    The request also continues NASA's dedicated efforts to inspire the 
next generation of explorers. NASA can provide hands-on experience and 
inspiration as few other agencies can. To foster the development of the 
U.S. workforce, NASA's education programs will focus on demonstrable 
results and capitalize on the agency's ability to inspire students and 
educators through unique missions and the big challenges that help 
today's young people envision their future in science, technology, 
engineering, and mathematics (STEM). NASA education is one of many 
Federal Government programs that support STEM education. NASA education 
is working with other agencies through the National Science and 
Technology Council's Committee on STEM Education to fund coordinated 
and effective student and teacher opportunities. NASA will focus its 
resources on demonstrated areas of strength in its unique role in STEM 
education, freeing resources for other agency priorities. NASA brings 
many assets, beyond funding, to support the administration's emphasis 
on STEM education. Our people, platforms like the ISS, and our 
facilities across the Nation all contribute to strengthening STEM 
education.
    NASA is grateful to the American people, and their representatives 
here on the subcommittee for the continued support for NASA despite the 
difficult resource challenges facing our Nation. A more detailed 
description of NASA's balanced program of science, space exploration, 
technology development, and aeronautics is provided below.

                                SCIENCE

    NASA's Science Mission Directorate develops and operates innovative 
spacecraft missions and instruments that help researchers deliver new 
discoveries of the Earth, the Sun, the planetary bodies in our solar 
system, and the universe beyond. The fiscal year 2013 budget request 
for science is $4,911.2 million.
    NASA's Earth Science Program advances knowledge of the integrated 
Earth system--the global atmosphere, oceans, land surfaces, ice sheets, 
ecosystems, and interactions among them. The fiscal year 2013 budget 
request for science includes $1,784.8 million for Earth science. In 
2011, NASA successfully launched Aquarius/SAC-D, a cooperative ocean 
surface salinity mission conducted with the Argentine Space Agency, and 
with our partner the National Oceanic and Atmospheric Administration 
(NOAA) and the SNPP. SNPP is the first step in developing the Nation's 
next-generation climate and weather monitoring missions. During 
calendar year 2012, NASA will select the first small satellite mission 
under the Earth Venture (EV) program as recommended in NRC's decadal 
survey for Earth science. The fiscal year 2013 budget will fund all 
three components of the EV program:
  --this new small mission;
  --the on-going EV-1 airborne science campaigns; and
  --the first EV-I instrument of opportunity.
    Fiscal year 2013 will see the launch of the Landsat Data Continuity 
Mission and the completion of environmental testing for the Global 
Precipitation Measurement mission. The fiscal year 2013 budget will 
also fund continued development of the first two Tier 1 decadal survey 
missions, Soil Moisture Active Passive mission and ICESat-2. Finally, 
the fiscal year 2013 budget will fund continued development of three 
key missions to assure delivery of sustained Earth observations 
(Gravity Recovery and Climate Experiment-Follow on, OCO-2, and the 
SAGE-III instrument that will fly on the ISS) and fund the continued 
operation of 16 missions currently in orbit as well as research using 
the resultant data. The fiscal year 2013 budget request for Earth 
science sustains support for focused research, applications, and 
technology development activities that redeem the investment in our 
ongoing missions, while positioning us to accomplish essential new 
missions in the future. NASA's Earth science program leads to improved 
prediction services by other agencies, providing direct tangible 
benefits to communities, businesses, and citizens.
    NASA's Planetary Science Program explores the content origin and 
evolution of the solar system and the potential for life beyond Earth. 
The fiscal year 2013 budget request for science includes $1,192.3 
million for planetary science. In the second half of 2011, NASA 
launched Juno on its way to Jupiter, Gravity Recovery And Interior 
Laboratory (GRAIL) to the Moon, and the Mars Science Laboratory to the 
Red Planet. GRAIL's ``Ebb'' and ``Flow'' spacecraft will conduct their 
mission to map the Moon's gravity field and interior structure during 
the first half of 2012. The Mars Science Laboratory rover Curiosity 
will land in Gale Crater on Mars on August 6, 2012. The fiscal year 
2013 budget request funds the operation of Curiosity on Mars. The 
fiscal year 2013 budget will also fund the beginning of development of 
the next Discovery mission that will be selected from among three 
candidates completing their studies in 2012. In fiscal year 2013, NASA 
will be completing development of the LADEE mission to the Moon and the 
MAVEN mission to Mars for launch in late calendar year 2013/early 
fiscal year 2014. Also in fiscal year 2013, NASA will continue the 
development of the OSIRIS-REx mission to return samples from an 
asteroid, and will continue operation of the Dawn (the asteroid Vesta), 
Juno (Jupiter), Cassini (Saturn), New Horizon (Pluto), and MESSENGER 
(Mercury) missions. However, the resources available over the budget 
horizon are insufficient to enable either a future Mars or Outer 
Planets flagship mission as identified by last year's planetary science 
decadal survey.
    NASA remains committed to a vigorous program of Mars exploration 
and continuing America's leadership role in Mars exploration within the 
available budget. As stated above, NASA is discontinuing its effort on 
instruments for the joint (NASA/ESA) 2016 ExoMars Trace Gas Orbiter 
mission and the 2018 mission that NASA had been exploring with ESA. 
Instead, NASA will develop an integrated strategy to ensure that the 
next steps for Mars exploration will support science as well as long-
term human exploration goals. This process will be informed by 
coordination with the science community and international community. 
NASA is developing a plan for a reformulated medium-class robotic 
science Mars mission, within available resources, to take advantage of 
the favorable location of Mars and Earth in 2018 or 2020. NASA's plan 
is to work with potential international partners including ESA and the 
science community to lay out an initial framework for this mission over 
the next several months and produce a mission architecture by this 
summer. The budget request includes $62 million in fiscal year 2013 for 
this mission.
    NASA's Astrophysics Program seeks to discover how the universe 
works, explore how the universe began and evolved and search for Earth-
like planets. The fiscal year 2013 budget request for science includes 
$659.4 million for Astrophysics. NASA will continue to conduct science 
operations flights of the SOFIA aircraft in 2012 and 2013 as we upgrade 
its science instruments, and will continue parallel development of 
efforts leading to achievement of a full operational capability in 
2014. The fiscal year 2013 budget will fund the early stages of 
development of the next Astrophysics small Explorer mission to be 
selected early in calendar year 2013. Also in 2013, NASA will complete 
development of its instrument contributions to Japan's Astro-H mission 
for launch in fiscal year 2014. The fiscal year 2013 budget enables 
NASA to continue development of the GEMS Explorer mission toward a 
launch in 2015. Finally, the fiscal year 2013 budget will fund the 
operation of eleven Astrophysics missions currently in operation, 
including the Hubble, Spitzer, Chandra, and Fermi space telescopes.
    The JWST is an infrared telescope designed to study and answer 
fundamental astrophysical questions ranging from the formation and 
structure of the universe to the origin of planetary systems and the 
origins of life. The fiscal year 2013 budget request for science 
includes $627.6 million for JWST. A scientific successor to the Hubble 
Space Telescope and the Spitzer Space Telescope, JWST will be used by 
international teams of astronomers to conduct imaging and spectroscopic 
observations. The Observatory will be located in an orbit near the 
second Sun-Earth Lagrange point, approximately 1.5 million km from 
Earth. The telescope and instruments will be operated at a temperature 
of 40 degrees above absolute zero (40 Kelvin) shielded from the heat of 
the Sun by a large sunshield, to enable the Observatory to achieve 
unprecedented sensitivity over its entire wavelength range. NASA 
completed a new baseline cost and schedule for JWST at the end of 
calendar year 2011, and is now implementing that new baseline. All 18 
JWST primary mirror segments have been completed. NASA expects to take 
delivery of all four JWST instruments in fiscal year 2012-2013. In 
fiscal year 2013, NASA will begin sunshield fabrication and continue 
development of the Integrated Science Instrument Module and the ground 
segment.
    NASA's Heliophysics Program seeks an understanding of the Sun, and 
the complex interaction of the coupled system comprising the Sun, 
Earth, other planetary systems, the vast space within the solar system, 
and the interface with interstellar space. The fiscal year 2013 budget 
request for Science includes $647 million for Heliophysics. Later this 
year, NASA will launch the Radiation Belt Storm Probes mission, and the 
fiscal year 2013 budget will fund completion of its checkout and its 
early operations. The fiscal year 2013 budget will fund completion and 
launch of the Interface Region Imaging Spectrograph (IRIS) small 
Explorer mission as well as beginning of the development of the next 
small Explorer to be selected in early in calendar year 2013. Fiscal 
year 2013 will be a peak year in the development of the Magnetospheric 
Multiscale mission to be launched in 2015. The fiscal year 2013 budget 
will also fund the continued formulation of the Solar Probe Plus 
mission and development of the Solar Orbiter Collaboration with ESA. 
NASA expects to receive the new NRC Heliophysics decadal survey this 
spring, and will use it to shape the fiscal year 2014 budget request in 
this area.
    Also during fiscal year 2013, NASA will continue development of 
environmental operational satellites for NOAA on a reimbursable basis. 
These include the Joint Polar Satellite System, Geostationary 
Operational Environmental Satellites (GOES-R series), Jason 3, and the 
Deep Space Climate Observatory. Funding for these programs is in the 
Department of Commerce budget request for NOAA.
    In addition to the space missions emphasized above, the fiscal year 
2013 budget funds NASA's Science Mission Directorate to continue to 
sponsor competitively selected research by universities, industry, and 
government laboratories across the Nation. Using data from these 
missions, the Nation's scientific community pursues answers to profound 
scientific questions of interest to all humanity as well as questions 
that enhance our national capability to predict environmental change 
including severe storms, droughts, and space weather events, and 
thereby enhance our economic and environmental security.

                          AERONAUTICS RESEARCH

    NASA aeronautics research will enable the realization of the 
Nation's Next Generation Air Transportation System (NextGen), and the 
safer, more fuel efficient, quieter, and environmentally responsible 
aircraft that will operate within NextGen. Through the research we 
conduct and research we sponsor with universities and industry, we help 
to develop the technology that enables continuous innovation in 
aviation. American companies are well-positioned to build on 
discoveries and knowledge resulting from NASA research, turning them 
into commercial products, benefiting the quality of life for our 
citizens, providing new high-quality engineering and manufacturing job 
opportunities, and enabling the United States to remain competitive in 
the global economy. NASA's fiscal year 2013 budget request for 
aeronautics is $551.5 million to continue our tradition of developing 
new concepts for aeronautics applications.
    The fiscal year 2013 request for aeronautics research includes 
$168.7 million for the Fundamental Aeronautics Program, which seeks to 
continually improve technology that can be infused into today's state-
of-the-art aircraft, while enabling game-changing new concepts such as 
Hybrid Wing Body airframes, tilt-rotor aircraft, low-boom supersonic 
aircraft, and sustained hypersonic flight. In fiscal year 2010 and 
2011, we conducted emissions measurements for alternative nonpetroleum 
fuels derived from coal and biomass that showed dramatic reductions in 
particulate emissions in the vicinity of airports. In fiscal year 2013, 
the program will perform emissions measurements behind aircraft 
operating at relevant altitudes and cruise speeds to provide the first-
ever data on the impact of alternative fuels on contrail formation, an 
important factor in aviation climate impact. In fiscal year 2013, the 
program will also increase its research on composite materials to 
enable airframe weight reductions beyond those achieved with current 
materials and structural design concepts.
    NASA is combining hypersonic and supersonic research into a single 
project to focus on fundamental research for high-speed flight. 
Research into hypersonic flight is also relevant to the Department of 
Defense (DOD) and NASA will retain critical core competencies and 
national asset testing capabilities to continue productive 
collaborations with DOD. Responsibility for fundamental research on 
entry, decent, and landing technologies will be transferred to space 
technology to increase synergy with the agency's exploration and 
science missions. NASA will continue to work with DOD to maximize the 
efficiencies of current assets and investments and increase partnership 
to accomplish common goals. These realignments will enable NASA to 
focus on higher-priority research to improve the safety and minimize 
the environmental impacts of current and future aircraft and air 
traffic management systems. The fiscal year 2013 request for 
aeronautics research includes $104 million for the Integrated Systems 
Research Program. This program evaluates and selects the most promising 
environmentally friendly engine and airframe concepts emerging from the 
fundamental research programs for further development, integration, and 
evaluation in relevant environments. Last year, the program completed a 
major study by three aircraft manufactures to identify the critical 
technologies needed to simultaneously reduce emissions, fuel burn, and 
noise in aircraft entering service in 2025. In fiscal year 2013, the 
program will start a 3-year focused research effort on these 
technologies to advance their technology readiness. The program is also 
addressing the emerging desire to integrate Unmanned Aircraft Systems 
(UAS) into the National Airspace System. Current Federal Aviation 
Administration (FAA) regulations are built upon the condition of a 
pilot being on-board the aircraft. The Program will therefore generate 
data for FAA use in rule-making through development, testing, and 
evaluation of UAS technologies in operationally relevant scenarios.
    Reductions in environmental impact will be achieved not only 
through new aircraft, engines, and fuels, but also through improved air 
traffic management procedures, which is the focus of the Airspace 
Systems Program with $93.3 million requested for fiscal year 2013. Last 
year the program advised the FAA on new air traffic management concepts 
for more efficient routing of flights during their cruise phase. We 
also completed evaluations of concepts for new fuel-efficient arrival 
procedures and will deliver requirements for those concepts to the FAA 
this year. In fiscal year 2013, the program will begin demonstrations 
to verify that several new procedures for air traffic management during 
arrival and taxiing to the gate that are enabled by NextGen Automatic 
Dependent Surveillance-Broadcast (ADS-B) technology can work together 
seamlessly. This effort will demonstrate near-term and mid-term ADS-B 
application benefits and provide airlines with data to support their 
strategic decisions related to the significant investments they need to 
make to equip their aircraft with ADS-B capability.
    The Aviation Safety Program, with $81.1 million requested for 
fiscal year 2013, conducts research to ensure that current and new 
aircraft and operational procedures maintain the high level of safety 
which the American public has come to expect. In fiscal year 2011, the 
program advanced data mining methods that permit the discovery of 
flight operations and aircraft maintenance issues through automated 
analysis of the vast amounts of data generated during flight operations 
and by sensors onboard aircraft. These methods have enabled the 
development of new software for aircraft central maintenance computers 
on both business jet and large commercial aircraft that can identify 
the early stages of hardware faults 30 to 50 flights earlier than 
previously possible. This allows airline maintenance personnel to 
address equipment issues before they cause a disruptive maintenance 
delay at the airport gate. The program also focuses on mitigating 
environmental hazards to aviation and in fiscal year 2013 will conduct 
a flight campaign to characterize ice water content at high altitudes 
in tropical regions as a first step to understanding the causes of 
severe loss of power due to engine icing that has occurred on a number 
of occasions.
    U.S. leadership in aerospace depends on ready access to 
technologically advanced, efficient, and affordable aeronautics test 
capabilities. NASA's Aeronautics Test Program, with $78.1 million 
requested for fiscal year 2013, makes strategic investments to ensure 
the availability of these ground test facilities and flight test assets 
to researchers in Government, industry, and academia. In addition to 
this strategic management activity, the program will continue 
developing new test instrumentation and test technologies. Last year 
the program completed nearly $50 million worth of upgrades to major 
facilities funded through the American Recovery and Reinvestment Act. 
These upgrades provide improved research capabilities at Glenn and Ames 
Research Centers for aircraft and engine icing research, and tilt-rotor 
designs for a new generation of rotorcraft. New capabilities were also 
added to the Langley 14x22 Subsonic Wind Tunnel that will enable 
researchers to measure noise signatures from novel aircraft designs at 
a fraction of the cost of noise measurement acquired by flying real 
aircraft over airport microphone arrays. NASA's Aeronautics Test 
program enables and sustains U.S. leadership in aerospace yielding 
high-quality jobs and ultimately a productive aerospace sector.
    The Aeronautics Strategy and Management Program provides for 
research and programmatic support that benefits each of the other five 
programs, and has a requested budget of $26.4 million for fiscal year 
2013. The program manages Directorate functions including innovative 
concepts for aviation, education and outreach, and cross program 
operations.
    NASA is making meaningful contributions to the aerospace community, 
but we cannot do all these good things alone. Therefore, our 
partnerships with industry, academia, and other Federal agencies are 
critical to our ability to expand the boundaries of aeronautical 
knowledge for the benefit of the Nation. These partnerships foster a 
collaborative research environment in which ideas and knowledge are 
exchanged across all communities and help ensure the future 
competitiveness of the Nation's aviation industry. They also directly 
connect students with NASA researchers and our industrial partners and 
help to inspire students to choose a career in the aerospace industry.

                    HUMAN EXPLORATION AND OPERATIONS

    In 2011, NASA combined the Exploration Systems and Space Operations 
Mission Directorates to create the Human Exploration and Operations 
(HEO) Mission Directorate. HEO encompasses everything from the ISS and 
the commercial cargo and crew vehicles that will support it, to NASA's 
new exploration vehicles, which will take astronauts beyond LEO. HEO 
also includes research and technology development efforts that will 
enable deep space exploration, as well as critical infrastructure and 
operational capabilities that ensure NASA's ability to conduct testing, 
launch science missions, and communicate with its spacecraft across the 
solar system. As NASA reformulates its Mars exploration plans, we will 
ensure that the next steps for Mars exploration will take into account 
long-term human exploration as well as science goals.
    The fiscal year 2013 budget request includes $2,769.4 million for 
human exploration capabilities, which the agency proposes to rename 
Exploration Systems Development. This program includes development of 
the Orion MPCV, SLS heavy-lift launch vehicle, and the supporting 
ground infrastructure required for NASA's future crewed missions of 
exploration beyond LEO and into deep space. The amounts requested align 
with the plan developed and supported by an independent cost analysis 
performed last summer.
    NASA's Orion MPCV will carry astronauts to, and support operations 
at, a variety of destinations in our solar system for periods of up to 
21 days. NASA has recently completed a number of tests on Orion MPCV, 
including a test of the main parachute, and a series of water drop 
tests on the 18,000-pound Orion MPCV Boiler Plate Test Article. The 
Orion ground test article will undergo and complete acoustic, modal, 
and vibration environment compatibility testing at Lockheed Martin 
Denver during fiscal year 2012. The results of these tests will help 
improve the design for the actual flight vehicle. In May, the Orion 
Crew Module primary structure will be moved to Kennedy Space Center in 
Florida for the start of Assembly, Integration, and Production. NASA 
plans to conduct an uncrewed high-energy-atmospheric entry test mission 
of the Orion MPCV in fiscal year 2014. Designated Exploration Flight 
Test-1 (EFT-1), this flight test will provide critical data to 
influence key design decisions. EFT-1 will also validate innovative new 
approaches to space systems development and operations to reduce the 
cost of exploration missions. For EFT-1, an early production variant of 
the Orion MPCV spacecraft will be integrated on a Lockheed Martin-
procured, heavy-class launch vehicle. The flight test will provide an 
opportunity to significantly inform critical design elements by 
operating the integrated spacecraft hardware and software in flight 
environments that cannot be duplicated by ground testing.
    On September 14, 2011, NASA announced the design of the SLS, which 
will initially be capable of lifting 70-100 metric tons before evolving 
to a lift capacity of 130 metric tons for more demanding missions. NASA 
has worked diligently to accomplish the contracting and design work 
necessary to support a 2017 initial flight mission for the SLS. In 
fiscal year 2013, SLS will continue detailed preliminary design and 
development and undergo a preliminary design review to evaluate the 
completeness/consistency of the program's preliminary design in meeting 
all requirements with appropriate margins, with acceptable risk, and 
within cost and schedule constraints. This comprehensive review will 
determine the program's readiness to proceed with the detailed critical 
design phase of the project.
    The SLS will use a liquid hydrogen and liquid oxygen propulsion 
system, building upon the investment made by the Nation over the last 
40 years. The vehicle's core stage will utilize existing Space Shuttle 
Main Engines (SSME RS-25D) for the initial capability. NASA's use of 
the SSME inventory will reduce initial design costs and take advantage 
of an existing human-rated system. NASA plans to modify and use the 
existing SSME contract with Pratt & Whitney Rocketdyne to acquire RS-
25D engine servicing and testing for the initial launch system.
    The upper stage of the SLS needed for the full-up SLS capability 
will also use a liquid hydrogen and liquid oxygen propulsion system 
that includes the J-2X, a new upper stage engine previously planned for 
use in the Ares-I vehicle. NASA is negotiating a modification to the 
Ares I Upper Stage contract with Boeing to develop the SLS core stage 
and upper stage, including avionics. SLS will also utilize the existing 
J-2X contract with Pratt & Whitney Rocketdyne to continue developing 
the upper stage engine.
    NASA has been running J-2X components through a series of tests. In 
November and December 2011, the agency conducted three J-2X engine 
tests, firing the motor for a total of 680 seconds. These were the last 
of 10 engine test firings completed in 2011. In January and February 
2012, NASA also conducted a series of J-2X Power Pack Assembly tests. 
These tests are part of a series of more than 100 power-pack and 
integrated engine tests that NASA has planned to complete the engine 
design and certify the J-2X for use in the SLS Upper Stage.
    NASA plans to use five-segment solid rocket boosters for the 
initial capability test flights of the SLS. We will conduct a 
competition to develop the follow-on boosters based on performance 
requirements. In support of this effort, on February 9, 2012, the 
agency released a NASA Research Announcement (NRA) for Advanced Booster 
Engineering Demonstration and Risk Reduction. Proposals are due in 
April and contract awards are expected in October 2012.
    On February 1, 2012, NASA also released a draft for an NRA for 
advanced development of key technologies in propulsion, avionics, 
structures and materials, and other areas. The final release is planned 
for March, with proposals due in May and contract award in October 
2012.
    Exploration Ground Systems (EGS) will develop the necessary ground 
systems infrastructure at the Kennedy Space Center and operational 
plans and procedures to prepare, assemble, test, launch, and recover 
the Exploration architecture elements for long-term beyond-Earth orbit 
exploration. EGS will focus on the lifecycle of a launch complex as an 
integrated system (from development, activation, operations, 
maintenance of capabilities to manufacture, assemble, test, checkout, 
launch, and recover flight hardware) to enable more efficient and cost-
effective ground processing, launch and recovery operations.
    The fiscal year 2013 budget request includes $829.7 million for the 
Commercial Spaceflight theme. This effort will support commercial 
providers to develop and operate safe, reliable, and affordable 
commercial systems to transport crew and cargo to and from the ISS and 
LEO.
    As part of the Commercial Orbital Transportation Services (COTS) 
program--NASA's commercial cargo effort--NASA has partnerships with 
Space Exploration Technologies, Inc. (SpaceX) and Orbital Sciences 
Corporation (Orbital) using funded Space Act Agreements. These 
agreements include a schedule of fixed-payment performance milestones 
culminating in a demonstration mission to the ISS that includes vehicle 
launch, spacecraft rendezvous, ISS berthing, and re-entry for disposal 
or return to Earth. Both COTS partners continue to make progress in 
developing and demonstrating their systems. Based on the success of 
their first COTS demo flight in December 2010, SpaceX plans to fully 
develop and assemble their next vehicle with the capabilities and 
equipment necessary to complete rendezvous and berthing demonstration 
to the ISS, thus potentially combining milestones that had been planned 
for separate flights. If successful, this will accelerate the 
completion of the COTS Space Act Agreement and enable delivery of cargo 
under the Commercial Resupply Services contract. This mission is 
tentatively planned for April 2012. Orbital Sciences is currently 
mating the main engines for its Antares vehicle to the core stage in 
preparation for an integrated static fire later this year. The maiden 
flight of the Antares is planned for launch no earlier than the second 
quarter of 2012, and it will include a Cygnus spacecraft mass 
simulator. Orbital Sciences' COTS demonstration flight to the ISS is 
slated for no earlier than the third quarter of 2012. The pad complex 
at Wallops Flight Facility in Virginia is being readied and space 
flight hardware, including the first Pressurized Cargo Module, two 
Antares core sections, and a Castor-30 upper stage, has already been 
delivered to Wallops Flight Facility.
    The Commercial Crew Program (CCP) aims to facilitate the 
development of a U.S. commercial crew space transportation capability 
with the goal of achieving safe, reliable, and cost effective access to 
and from LEO and ISS. Since 2009, NASA has conducted two CCDev 
competitions, soliciting proposals from U.S. industry to further 
advance commercial crew space transportation system concepts and mature 
the design and development of elements of the system. During the second 
CCDev competition, known as CCDev2, NASA awarded four funded Space Act 
Agreements that are currently being executed with Blue Origin, The 
Boeing Company, Sierra Nevada Corporation, and SpaceX, all of which are 
making good progress in achieving their milestones. NASA has also 
signed Space Act Agreements without funding with three additional 
companies:
  --Alliant Techsystems, Inc.;
  --United Launch Alliance; and
  --Excalibur Almaz, Inc.
    Under the CCP, NASA plans to partner with U.S. industry, providing 
technical and financial assistance to facilitate industry's development 
of an integrated crew transportation system. In the longer term, once 
those entities are certified, NASA plans to buy transportation services 
from commercial entities for U.S. and U.S.-designated astronauts to the 
ISS.
    The Congress appropriated $406 million for CCP in fiscal year 2012 
which reflected a substantial reduction from NASA's request for this 
program. The fiscal year 2012 appropriation enables the agency to move 
forward with its plans to support the development of commercial 
services that may eventually support crew transportation and rescue 
capabilities in support of ISS. However, the constrained budget 
environment necessitated a reassessment of NASA's overall strategy for 
this Program. On December 15, 2011, NASA announced a modified 
competitive acquisition strategy designed to make the best use of 
available resources and to pursue the most effective path to the 
achievement of a commercial crew capability. Instead of using firm-
fixed price contracts for the next phase of the program, the agency 
plans to continue using multiple, competitively awarded and funded 
Space Act Agreements for another round of CCP. NASA will use 
procurement contracts to certify these capabilities before they are 
used to support ISS. Using competitive Space Act Agreements instead of 
contracts at this juncture will allow NASA to maintain multiple 
partners during this phase of the program, and provide NASA with the 
flexibility to more easily adjust to various funding levels. This new 
acquisition strategy will allow NASA to preserve greater competition 
and maintain momentum to provide a U.S.-based commercial crew launch 
capability at the earliest possible time.
    NASA is pleased with the steady progress of U.S. commercial 
providers in developing domestic cargo and crew transportation 
services. NASA currently has contracts for cargo services and intends 
to purchase crew services from U.S. providers once they are certified 
to our crew requirements. Obtaining needed cargo and crew 
transportation services from U.S. providers is NASA's preferred method 
for sustaining and fully utilizing the ISS. Nevertheless, given current 
funding levels for the development of U.S. crew transportation systems, 
we anticipate the need to purchase Soyuz crew transportation and rescue 
capabilities into 2017. As NASA has previously testified, modification 
of INKSNA provisions will likely be required for the continued 
operation of ISS and other space programs after 2016. The 
administration plans to propose appropriate provisions and looks 
forward to working with the Congress on their enactment. NASA is 
evaluating how this issue impacts the development of U.S. crew 
transportation systems and NASA's acquisition of services for the ISS 
and goods and services for other NASA human spaceflight activities, 
given the possibility that some U.S. domestic providers will need to 
use Russian goods and services. In addition to the need driven by the 
ISS transportation requirements, NASA will require Russia-unique 
critical capabilities for the life of the ISS, such as sustaining 
engineering for the Russian-built, United States-owned Functional Cargo 
Block, that are not available elsewhere.
    The fiscal year 2013 budget request includes $333.7 million for 
Exploration Research and Development (ERD). The ERD theme will expand 
fundamental knowledge that is key to human space exploration, and will 
develop advanced exploration systems and capabilities that will enable 
humans to explore space in a more sustainable and affordable way. ERD 
is comprised of the Human Research Program (HRP) and the Advanced 
Exploration Systems (AES) Program, which will provide knowledge and 
advanced human spaceflight capabilities. NASA's Office of the Chief 
Technologist (see below) coordinates closely with ERD to ensure that 
NASA's long range, crosscutting Space Technology research is 
complementary to ERD's human exploration focused work.
    HRP and its associated projects will continue to develop 
technologies, countermeasures, diagnostics, and design tools to keep 
crews safe and productive on long-duration space missions. ISS crews 
are conducting relevant human medical research to develop knowledge in 
the areas of clinical medicine, human physiology, cardiovascular 
research, bone and muscle health, neurovestibular medicine, diagnostic 
instruments and sensors, advanced ultrasound, exercise and 
pharmacological countermeasures, food and nutrition, immunology and 
infection, exercise systems, and human behavior and performance. While 
this research is aimed at enabling astronauts to push the boundaries of 
exploration beyond LEO, NASA anticipates that investigations conducted 
aboard ISS may have broad application to terrestrial medicine, as well. 
For example, the growing senior population may benefit from experiments 
in the areas of bone and muscle health, immunology, and from the 
development of advanced diagnostic systems.
    The AES program is pioneering new approaches for rapidly developing 
prototype systems, demonstrating key capabilities, and validating 
operational concepts for future human missions beyond-Earth orbit. AES 
activities are uniquely related to crew safety and mission operations 
in deep space, and are strongly coupled to future vehicle and 
exploration capability development. Early integration and testing of 
prototype systems will reduce risk and improve affordability of 
exploration mission elements. The prototype systems developed in the 
AES Program will be demonstrated in ground-based test beds, field 
tests, underwater tests, and flight experiments on the ground and then 
on the ISS. Many AES projects will evolve into larger integrated 
systems and mission elements that will be tested on ISS before we 
venture beyond-Earth orbit, thus leveraging the value of ISS as a vital 
exploration test-bed.
    The fiscal year 2013 budget request includes $70.6 million for the 
Space Shuttle Transition and Retirement. In 2011, the shuttle flew out 
its remaining missions safely. On February 24, Discovery launched on 
mission STS-133, carrying supplies to ISS, as well as the permanent a 
Multi-purpose Module--a Multi-Purpose Logistics Module transformed to 
remain on orbit, expanding the Station's storage volume. On May 16, 
Endeavour, STS-134, carried the Alpha Magnetic Spectrometer and 
attached it to the Station's truss structure. The final shuttle 
mission, STS-135, launched on July 8, delivered critical supplies to 
the ISS. With the landing of Atlantis on July 21, 2011, the 30-year 
shuttle program was brought to a close. The space shuttle program is 
now focused on the transition of key assets and infrastructure to 
future programs, and the retirement, and disposition of program assets.
    In fiscal year 2012, NASA is funding United Space Alliance's (USA) 
Space Program Operations Contract Pension Liability. During the shuttle 
program, USA consistently incorporated and billed the maximum allowable 
costs into their indirect rates, but the deterioration of the equities 
and credit markets caused their plan to be underfunded by a currently 
estimated $522 million. The estimate will fluctuate until payout in the 
summer of 2012. The variance is protected in the transition and 
retirement budget line item. The Space Program Operations Contract, 
which accounts for almost all of USA's business base, is a cost-type 
contract covered by the Cost Accounting Standards. These standards 
stipulate that any costs of terminating plans are a contractual 
obligation of the Government (if deemed allowable, allocable, and 
reasonable). NASA and USA entered into an agreement under which USA 
froze their pension plans as of December 31, 2010, and deferred any 
decision about terminating their plan until after NASA received its 
fiscal year 2012 appropriation, allowing NASA to address this issue 
with fiscal year 2012 funds. If funding remains after the pension plan 
termination, it will be used to defray space shuttle closeout costs 
that would otherwise require fiscal year 2013 funding. If there is a 
shortfall, it will reduce available space shuttle funds for closeout 
and some activity could move later than planned. NASA will keep the 
Congress informed as this issue evolves.
    The fiscal year 2013 budget request includes $3,007.6 million for 
the ISS program. This funding will support ISS Operations and 
Maintenance, ISS Research, and ISS Crew and Cargo Transportation. The 
ISS has transitioned from the construction era to that of operations 
and research, with a six-person permanent crew, three major science 
labs, an operational lifetime through at least 2020, and a growing 
complement of cargo vehicles, including the European Automated Transfer 
Vehicle and the Japanese H-II Transfer Vehicle (HTV). The fiscal year 
2013 budget request reflects the importance of this unparalleled 
research asset to America's human spaceflight program.
    In the NASA Authorization Act of 2005 (Public Law 109-155), the 
Congress designated the U.S. segment of the ISS as a National 
Laboratory, and directed the agency to seek to increase the utilization 
of the ISS by other Federal entities and the private sector. NASA has 
made great strides in its effort to engage other organizations in the 
ISS program, and the agency now has Memoranda of Understanding with 
five Federal agencies and Space Act Agreements with nine companies and 
universities. In the NASA Authorization Act of 2010 (Public Law 111-
267), the Congress directed that the agency enter into a cooperative 
agreement with a not-for-profit organization to manage the activities 
of the ISS National Laboratory. To this end, on August 31, 2011, NASA 
finalized a cooperative agreement with the Center for the Advancement 
of Science in Space (CASIS) to manage the portion of the ISS that 
operates as a U.S. National Laboratory. CASIS will be located in the 
Space Life Sciences Laboratory at Kennedy Space Center in Florida. The 
independent, nonprofit research management organization will help 
ensure the Station's unique capabilities are available to the broadest 
possible cross-section of U.S. scientific, technological and industrial 
communities. CASIS will develop and manage a varied Research and 
Development portfolio based on U.S. national needs for basic and 
applied research; seek to establish a marketplace to facilitate 
matching research pathways with qualified funding sources; and 
stimulate interest in using the national lab for research and 
technology demonstrations and as a platform for STEM education. The 
goal is to support, promote and accelerate innovations and new 
discoveries in science, engineering and technology that will improve 
life on Earth.
    The fiscal year 2013 budget request includes $935 million for Space 
and Flight Support (SFS). The budget request provides for critical 
infrastructure indispensable to the Nation's access to and use of 
space, including Space Communications and Navigation (SCaN), Launch 
Services Program (LSP), Rocket Propulsion Test (RPT), and Human Space 
Flight Operations. The SFS budget also includes investment in the 21st 
Century Space Launch Complex, whose primary objective is to modernize 
and transform the Florida launch and range complex at the Kennedy Space 
Center to benefit current and future NASA programs, along with other 
emerging users. Fiscal year 2013 is an important period for NASA's SCaN 
program. The program is responsible for NASA's Tracking and Data Rely 
Satellites (TDRS) that provide a critical backbone for space 
communications. Fiscal year 2013 will include the scheduled launch 
TDRS-K, an additional satellite in the system; completion of TDRS-L 
integration; and the development of TDRS-M, which will be ready for 
launch in 2015. These spacecraft will refurbish this important network 
as aging TDRS are retired after 20 years of service to the Nation. Also 
under construction is a 34-meter antenna at the Deep Space Network's 
Canberra Deep Space Communication Complex, with plans to build a 
second, to replace the aging 70-meter antenna. These antennae in the 
Southern Hemisphere will be particularly important as the Earth's 
rotation brings this site into the best range for tracking NASA's deep 
space missions in the coming decade. In preparation for supporting 
NASA's space science program, SCaN is developing space communications 
technology, including the Lunar Laser Communications Demonstration and 
the Laser Communication Relay Demonstration, which will lead to the 
capability of handling the huge increase in scientific data expected 
from NASA's planned spacecraft. Additionally, this capability could 
enable greater bandwidth and capabilities to support expanded 
education, participatory engagement, and interactive exploration 
opportunities. SCaN also anticipates the launch of its SCaN Test-bed in 
June on the Japanese Space Agency's HTV cargo vehicle. The test-bed, 
composed of three Software-Defined Radios, will provide the bridge to 
advance technological innovation by actual testing in the real space 
environment. As a pathfinder it will be made available to industry, 
academia, and other Government agencies.
    LSP has several planned NASA launches in fiscal year 2013, 
including the, Landsat Data Continuity Mission, TDRS-K, and IRIS, and 
will continue to provide support for the development and certification 
of emerging launch services. In fiscal year 2013, the RPT program will 
continue to conduct test facility management, maintenance, sustaining 
engineering, operations, and facility modernization projects required 
to keep the test-related facilities in the appropriate state of 
operational readiness. The RPT program will continue to assist in 
rocket propulsion testing requirements definition for LEO and in-space 
propulsion systems and related technologies

                            SPACE TECHNOLOGY

    The Office of the Chief Technologist (OCT) coordinates the agency's 
overall technology portfolio. OCT ensures that NASA's investments are 
cost-effective and that they are aligned with the agency's near- and 
far-term goals. Over the last year, OCT has engaged thousands of 
technologists and innovators to develop and test cutting-edge 
technologies distributed across the country. While NRC conducted its 
review of NASA's technology roadmaps, OCT worked with mission 
architecture teams to identify key technology areas requiring immediate 
investment. Using these internal, cross-agency working groups, NASA 
selected nine technologies to receive priority funding based on their 
criticality in extending human presence beyond LEO and their ability to 
dramatically further scientific exploration of the solar system. These 
``Big 9'' projects are:
  --Laser communications relay demonstration;
  --Cryogenic propellant storage and transfer;
  --Low-density supersonic decelerators;
  --Composite cryogenic propellant tanks;
  --Robotic satellite servicing;
  --Hypersonic inflatable aerodynamic decelerators;
  --Deep space atomic clock;
  --Large-scale solar sail; and
  --Human-robotic systems.
    On February 1, 2012, NRC released its final review of NASA's Draft 
Space Technology Roadmaps. NRC identified 16 top-priority technologies 
necessary for future missions, and which could also benefit American 
aerospace industries and the Nation. The 16 were chosen by the NRC from 
its own ranking of 83 high-priority technologies out of approximately 
300 identified in the draft roadmaps. In the coming months, OCT will 
lead an agency-wide analysis and coordination effort to inform future 
technology investments on the basis of the NRC report.
    The fiscal year 2013 request for space technology is $699 million 
and funds on-going high-priority space technology projects that will 
increase the Nation's capability to operate in space and enable long-
term human exploration and develop efficiencies for deep space science 
missions. In fiscal year 2013, NASA will begin to see major milestones 
achieved within Space Technology's ``Big 9'' efforts. Designed to 
deliver data rates that will enable new class of deep-space exploration 
missions, the Laser Communications Relay Demonstration project will 
begin ground validation activities of advanced laser communication 
systems. Enabling precise landing of higher-mass payloads to the 
surface of planets, the Low Density Supersonic Decelerators effort will 
complete three critical full-scale tests to demonstrate parachute and 
inflatable decelerator performance required prior to supersonic-speed 
flight demonstration. The Composite Cryogenic (low-temperature) 
Propellant Tank project will design and build a 5-meter-diameter 
composite cryogenic propellant tank that will yield lower-mass and 
lower-cost rocket propellant tanks. The Cryogenic Propellant Storage 
and Transfer demonstration mission will conduct ground tests of the 
critical technologies required to enable long-term storage and handling 
of cryogenic fluids in space in preparation for a flight demonstration. 
While these projects will make visible individual steps in fiscal year 
2013, they are part of a broader portfolio of activities that space 
technology will pursue in order to generate new technologies for use by 
NASA, other government agencies, and U.S. industry.
    Within space technology, NASA funds Crosscutting Space Technology 
Development at $293.8 million to enable NASA to develop 
transformational, broadly applicable technologies and capabilities that 
are necessary for NASA's future science and exploration missions, and 
also collaborates on the aerospace needs of other government agencies 
and the U.S. space enterprise. NASA's CSTD activities are funded 
through a mix of competitive and strategically guided projects to 
attract a broad array of participants. Investments support research 
fellowships, NASA Innovative Advanced Concepts (NIAC), Centennial 
Challenges, suborbital flight opportunities, and advancements in small 
satellite technologies and systems.
    NASA also funds Exploration Technology Development at $202 million 
to invest in the long-range technologies required for humans to explore 
beyond LEO. ETD technologies are higher-risk investments that 
complement architecture and systems development efforts within 
exploration by maturing breakthrough technology prior to integration 
with operational capabilities. As projects are matured, new projects 
are selected competitively to provide the opportunity to develop the 
best ideas, innovations, approaches, and processes for the future human 
space exploration efforts.
    Funded based on a percentage of the agency's total extramural R&D, 
the Small Business Innovative Research (SBIR) and Small Business 
Technology Transfer (STTR) programs continue to support research and 
development performed by small businesses through competitively awarded 
contracts. Estimated at approximately $173.7 million in fiscal year 
2013, these programs produce innovations for both Government and 
commercial applications. SBIR and STTR provide the high-technology 
small business sector with the opportunity to develop technology for 
NASA, and commercialize that technology to provide goods and services 
that address other national needs based on the products of NASA 
innovation.
    Partnership Development and Strategic Integration, funded at $29.5 
million, comprises key agency responsibilities managed by OCT:
  --technology partnerships;
  --technology transfer and commercialization; and
  --the coordination of NASA's technology investments across the agency 
        through technology portfolio tracking and technology road-
        mapping.
    By providing coordination between Mission Directorates and Centers, 
and identifying collaboration opportunities with other government 
agencies and performing technology transfer, NASA can deliver forward-
reaching technology solutions for future science and exploration 
missions, and help address significant national needs.
    Within this portfolio, OCT engages in national technology 
development initiatives such as the National Robotics Initiative, the 
National Nanotechnology Initiative and the Advanced Manufacturing 
Partnership, and seeks partnerships with external entities for 
collaborative technology development. OCT engages the larger aerospace 
community including other Government agencies, and where there are 
mutual interests, develops partnerships to efficiently develop 
breakthrough capabilities.

                               EDUCATION

    The fiscal year 2013 request includes $100 million for NASA's 
Office of Education to develop STEM education activities that only NASA 
can provide. The funding request would allow undergraduate and graduate 
students to work alongside NASA scientists and engineers through 
internships and fellowships at NASA centers. It includes educator 
professional development, helping our country's educators become 
proficient in STEM topics, and providing them opportunities to practice 
hands-on investigations. NASA will also continue to support the 
institutions where learning takes place. Through the Space Grant and 
Minority University Research and Education projects, NASA will work 
with hundreds of universities and community colleges, strengthening 
their capacity to train the next generation of scientists and 
engineers, encouraging student design challenges, and connecting 
faculty with NASA research. And, because we know inspiration doesn't 
just happen in a classroom, we will engage learners in NASA content at 
our visitor centers and in partnership with museums, science centers, 
planetariums and other informal education venues.
    NASA is one of many Federal Government programs that support STEM 
education. NASA is working with other agencies through the National 
Science and Technology Council's Committee on STEM education to effect 
optimal revisions to fund coordinated and effective student and teacher 
opportunities. NASA will focus its resources on demonstrated areas of 
strength in its unique role in STEM education. NASA brings many assets 
to support the administration's emphasis on STEM education beyond 
funding. Our people, platforms like the ISS and our facilities across 
the Nation all contribute to strengthening STEM education.
    Recognizing that the nature of our work is inspirational to 
learners and educators, NASA will leverage the talents of our workforce 
to support the critical STEM education needs of our Nation. In 
collaboration with other Federal agencies, NASA will leverage unique 
assets ISS, to provide meaningful experiences. In March, educator 
Astronaut Joe Acaba, a former middle and high school teacher, will 
begin a 6-month mission onboard the ISS. During his time in space, he 
will work closely with our education team on the ground to share his 
experience with classrooms across America.

                          CROSS-AGENCY SUPPORT

    The fiscal year 2013 budget request includes $2,847.5 million for 
cross-agency support, which provides critical mission support 
activities that are necessary to ensure the efficient and effective 
operation and administration of the agency. These important functions 
align and sustain institutional and program capabilities to support 
NASA missions by leveraging resources to meet mission needs, 
establishing agency-wide capabilities, and providing institutional 
checks and balances. Within this budget request, NASA has taken steps 
to reduce its administrative expenses, including a hiring slowdown and 
reduced travel.
    NASA's fiscal year 2013 budget request includes $2,093.3 million 
for Center Management and Operations, which funds the critical ongoing 
management, operations, and maintenance of nine NASA Centers, as well 
as associated major component facilities. NASA Centers continue to 
provide high-quality support and the technical engineering and 
scientific talent for the execution of programs and projects. This 
technical expertise represents a true national resource. Center 
Management and Operations provides the basic support required to meet 
internal and external legal and administrative requirements; 
effectively manage human capital, information technology, and facility 
assets; responsibly execute financial management and all NASA 
acquisitions; ensure independent engineering and scientific technical 
oversight of NASA's programs and projects in support of mission success 
and safety considerations; and, provide a safe, secure, and sustainable 
workplace that meets local, State, and Federal requirements.
    NASA's fiscal year 2013 budget request includes $754.2 million for 
agency management and operations, which funds the critical management 
and oversight of agency missions, programs and functions, and 
performance of a broad spectrum of NASA-wide activities. These programs 
include Safety and Mission Success activities, essential to reducing 
the likelihood of loss of life and likelihood of mission success in our 
human and robotic programs. Safety and Mission Success funding supports 
the maintenance of independent safety, health, medical and engineering 
assessments of systems and processes, as well as the performance of the 
broad risk assessments, mitigations, and acceptance related to critical 
agency decisions. Agency Information Technology Services encompasses 
agency-level cross-cutting services and initiatives in Information 
Technology (IT) innovation, business and management applications, and 
infrastructure necessary to enable the NASA mission. The Strategic 
Capabilities Assets Program (SCAP) ensures that vital agency test 
capabilities and assets, such as flight simulators and thermal vacuum 
chambers are sustained in order to serve agency and national needs. The 
agency management and operations account funds salary and benefits for 
civil service employees at NASA headquarters, as well as other 
headquarters personnel costs, such as mandated training. It also 
contains labor funding for agency-wide personnel costs, such as agency 
training, and workforce located at multiple NASA Centers that provide 
the critical skills and capabilities required to execute mission-
support programs agency-wide.

       CONSTRUCTION AND ENVIRONMENTAL COMPLIANCE AND RESTORATION

    The fiscal year 2013 budget request includes $619.2 million for 
construction and environmental compliance and restoration. NASA 
construction and environmental compliance and restoration provides for 
the design and execution of all facilities construction projects, 
including discrete and minor revitalization projects, demolition of 
closed facilities, and environmental compliance and restoration.
    The fiscal year 2013 budget request includes $552.8 million for the 
Construction of Facilities (CoF) program, which funds capital repairs 
and improvements to ensure that facilities critical to achieving NASA's 
space and aeronautics programs are safe, secure, sustainable, and 
operate efficiently. The agency continues to place emphasis on 
achieving a sustainable and energy-efficient infrastructure by 
replacing old, inefficient, deteriorated buildings and infrastructure 
with new, efficient, and high-performance buildings and infrastructure 
that will meet NASA's mission needs while reducing the agency's overall 
footprint and future operating costs. In August 2011, NASA opened the 
agency's first building designed for ``Net-Zero'' energy operations, 
the Propellants North Administration and Maintenance Facility at the 
Kennedy Space Center in Florida. Two active programs that result in 
NASA achieving greater efficiencies and reduced operating costs are 
NASA's demolition program and recapitalization program, in which old 
inefficient facilities are replaced with new, efficient, consolidated 
facilities. Twelve horizontal infrastructure projects that sustain our 
major utility systems are included in this request; completion of these 
projects will reduce our usage of potable and process water, 
electricity, and steam.
    The fiscal year 2013 budget request includes $66.4 million for the 
Environmental Compliance and Restoration (ECR) program, which supports 
the ongoing clean-up of sites where NASA operations have contributed to 
environmental problems. The ECR program prioritizes these efforts to 
ensure that human health and the environment are protected. This 
program also supports strategic investments in sustainable 
environmental methods and practices aimed at reducing NASA's 
environmental footprint and lowering the risk of future cleanups.

                               CONCLUSION

    NASA's fiscal year 2013 budget request of $17.7 billion represents 
a substantial investment in a balanced program of science, exploration, 
technology, and aeronautics research. Despite the constrained budget 
environment facing the Nation, this request supports a robust space 
program that keeps us on a path to achieving a truly audacious set of 
goals. NASA is working to send humans to an asteroid and ultimately to 
Mars, to observe the first galaxies form, and to expand the 
productivity of humanity's only permanently crewed space station. We 
are making air travel safer and more efficient, learning to live and 
work in space, and developing the critical technologies to achieve 
these goals. The coming year will include the first commercial cargo 
flights to the ISS, a nuclear-powered robot the size of a small car 
landing on the surface of Mars, and the launch of the Nation's next 
land-observing satellite. We have spacecraft studying the Sun, circling 
Mercury, cruising to Pluto and investigating almost everything in-
between. In the face of very difficult times, the American people 
continue to support the most active, diverse, and productive space 
program in the world. We at NASA are honored by our fellow citizens' 
continued support and we are committed to accomplishing the goals that 
the Congress and the President have laid out for us. The program 
described and supported by our fiscal year 2013 budget request 
represents our plan to accomplish those goals.

    Senator Mikulski. Senator Cochran.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Madam Chair, thank you very much.
    Mr. Administrator, welcome to our subcommittee. We 
congratulate you on your continued leadership for NASA, and we 
are really proud that Mississippi has had a very conspicuous 
role to play in our space flight efforts, specifically being 
the home of the SLS and the testing that has been consistent 
with the mission of NASA up to this point.

                     ENGINE TESTING AND DEVELOPMENT

    We hope that NASA is considering what it's going to do and 
how it's going to proceed with testing, what funds will be 
needed so that we can respond in the Congress with the support 
from those others who support NASA, and we'd like to see the 
programs that we think are in the national interest continue. 
At the Stennis Space Center, we play a big role in that, in my 
view.
    Is that something that you could agree with? Or if there 
are other plans that NASA has that we're not aware of, could 
you let us know what they are?
    Mr. Bolden. Senator, as you and I have discussed before, 
Stennis plays a key role in the future of NASA, whether it's 
with NASA engine testing and development or whether it's 
commercial engine testing and development. And the other thing 
that you know very well--I refer to Stennis as the Federal 
city. We host a number of other Federal agencies at Stennis, 
and we're very proud to do that, everything from the Coast 
Guard and Special Operations Forces, the Navy. All the buoys 
are re-done onboard the Stennis facility, so we're very proud 
of that, and we see Stennis continuing its role as a Federal 
city.

                      MAIN PROPULSION TEST CENTER

    Senator Cochran. Well, I'm hopeful that we will have enough 
advanced notice and advice so that we can be supportive and 
helpful, if that's the will of this subcommittee and of the 
Senate.
    I wonder if you could say at this point what the costs 
would be if we reactivated the testing for space flight or for 
launches that would occur under NASA's jurisdiction. What 
specific plans do you anticipate having to implement?
    Mr. Bolden. Senator, I think what you're addressing is the 
total test of the main propulsion test center the way that we 
used to do it, which is the cluster of all five engines for the 
SLS. We're evaluating right now whether we really need to do 
that. We think we will, and we will come back to this 
subcommittee and to the Congress to say what we think we need 
to do in terms of shifting funds from something else that we 
were going to do to be able to conduct that test. I'm not 
prepared to give you an estimate right now, but I will take it 
for the record and get back to the subcommittee on it.
    [The information follows:]

                      Main Propulsion Test Center

    The National Aeronautics and Space Administration (NASA) plans to 
conduct an integrated test of the Space Launch System (SLS) Core Stage 
prior to the launch of the first flight, Exploration Mission-1 (EM-1), 
which is scheduled for launch at the end of 2017. The current plan is 
to conduct this integrated test (including a tanking test and two full-
duration 550-second firings) on the SLS core stage that will be used 
for EM-1. After a review by the Rocket Propulsion Test Program, the 
agency has decided to conduct this test on the B-2 test stand at the 
Stennis Space Center. The agency estimates that the total construction 
costs associated with preparing B-2 to support this integrated test are 
approximately $168 million. The agency will provide the Congress with 
the construction of facilities plan as part of the fiscal year 2012 
operating plan update.

    Senator Cochran. That would be helpful for us to know just 
for our information, and also planning, to be sure we have room 
within our budget resolutions to provide the funding that would 
be needed.
    I understand that rocket test facilities would get the same 
kind of systems-level testing of the SLS and that an evaluation 
could be done by NASA at this time of the potential commercial 
uses of such facilities and the resources that may be needed in 
the next fiscal year. Do you have any specific requests in this 
budget year that's coming up of the specific amounts that would 
be needed for any of those activities?
    Mr. Bolden. Senator, as was requested by the Congress, we 
are just about finished with the report on the utilization and 
rehabilitation of the rocket test facilities, and that will 
give us definitive answers to the question you just posed. So 
we're pretty close. I have a draft of that report. It should be 
ready soon, and if we need additional funds, we will be coming 
to the Congress for that.
    Senator Cochran. Well, we thank you for that.
    Madam Chair, I'll yield the floor after making an 
observation that we continue to be complimented that the 
Stennis Space Center is known as the Federal city, and we are 
hopeful that we will continue to be good hosts and supportive 
of the efforts that are made there to help make sure that we 
carry out the programs that were designed there at Stennis and 
continue to be cherished in the memory of those of us who live 
in Mississippi.

                       JAMES WEBB SPACE TELESCOPE

    Senator Mikulski. Administrator Bolden, we'll probably go 
to a second round, but in my first round I want to focus on the 
JWST. I think as you've heard from the members here, we're each 
interested in where NASA, through our appropriations process 
and authorizing, is making a significant investment in some 
really big projects with really big bucks behind it, for which 
there is no margin for error or cost overruns and so on.
    Last year, this subcommittee took a major step with the 
bipartisan concurrence of everyone to make sure we put the JWST 
on track. This is after we had asked for a significant 
management review because we were concerned 2 years ago that 
the JWST was off track, off budget, and we were concerned that 
it was going to be cancelled not because of technology 
dysfunction but because of management dysfunction.
    So last year we put in a significant amount of money, and 
this year the budget request is for $628 million to keep it on 
track for launch by 2018. My question to you is, is the JWST on 
track, and how do we know it to be so?
    Mr. Bolden. Senator, no one was as concerned as I was when 
I found out the condition of JWST, and I can tell you now that 
after the management changes we made at the Goddard Space 
Flight Center, at headquarters, and also in the prime 
contractor of Northrup Grumman, I'm very confident that JWST is 
on track.
    I get a status report on milestones and costs every month, 
and for almost a year-and-a-half now we have met or exceeded 
the time on every--when I say exceeded, it has been quicker 
than forecast. So we have met or bettered every milestone, and 
we are on cost. There were 27 milestones that we laid out. To 
this date, 26 of them have been met. The only one we didn't, we 
delayed because of the results that we wanted to get from one 
of the other milestones there.
    So, two things. The management in place, the diligence and 
discipline with which we are approaching the project, the 
constant oversight that's given from my office by me and my 
associate administrator makes me confident that the JWST is 
going to make a 2018 launch with the funding that we have 
requested in this budget.
    Senator Mikulski. Do you believe that it will make 2018?
    Mr. Bolden. Yes, ma'am, I do.

                         SEQUESTER CONSEQUENCES

    Senator Mikulski. Well, what will happen if there's a 
sequester?
    Mr. Bolden. Senator, I think I've talked to everybody about 
this. While I am a realist, I'm probably the world's greatest 
optimist, and I am confident that this Congress will avoid that 
and that we will have a budget, and that we will be able to 
meet our 2018 deadline.
    Senator Mikulski. Well, you couldn't be an astronaut 
without being an optimist.
    Mr. Bolden. Yes, ma'am. I heard that this morning, as a 
matter of fact, that you don't want people who fly things 
making budgets----
    Senator Mikulski. You have to have one of the most 
optimistic views.
    But I am asking you, what would be the consequences of a 
sequester, and have you looked at it, both for the JWST and 
also the consequences of a sequester on the NASA budget?
    Mr. Bolden. Senator, I think anyone would say--and we have 
not taken a hard look at the results, what would be the result 
of a sequester, but we all know that it would be a significant 
cut to the NASA budget, which is already strained. We would 
have to come back to the Congress and talk about how we meet 
our priorities and whether we decided that we were going to put 
all of our funds on the priorities and forsake everything else. 
That would be the only way that we would be able to see those 
three priorities stick to the dates that we have right now.
    Senator Mikulski. So has the administration directed you as 
the NASA Administrator to have contingency plans in the event 
of that?
    Mr. Bolden. No, ma'am, we have not. The administration's 
position is as I--while they're not as optimistic as I am all 
the time, I think we all are optimistic that between the 
administration and the Congress, we'll find a way to work this 
out and we won't get to sequester. So we are not making 
contingency plans or anything.
    Senator Mikulski. Well, I think I'm optimistic, too. I 
would have never done the things I have in my life if I wasn't 
optimistic. But I think I'm also the kind of person that--I 
believe in a double cord if I needed a parachute, and I like 
having brakes on a car, and I like having airbags.
    So I really would recommend to both the administration and 
to you, again, complying with their directions, to really be 
ready for some real challenges. We hope not.
    Mr. Bolden. Yes, ma'am.
    Senator Mikulski. We hope not, but I think there is a big 
flashing yellow light on our screen.
    But, having said that, I've got a flashing yellow light on 
my time. Let me turn to Senator Hutchison.
    Senator Hutchison. I'm happy to let Senator Shelby and 
Senator Brown go next.
    Senator Mikulski. Senator Shelby.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you. Thank you, Senator Hutchison.
    Mr. Administrator, I believe that the core mission of NASA 
is to build cutting-edge systems that will allow us to expand 
our knowledge of the universe. This administration, I believe, 
seems to think that NASA's job is to use taxpayer money as 
venture capital to support speculative commercial companies, 
the future Solyndras of the space industry.

                          NASA'S CORE MISSION

    Despite identifying SLS as a priority program, you 
requested $150 million less in the fiscal 2013 budget year than 
the Congress provided in 2012 for the SLS vehicle development. 
At the same time, you doubled funding for commercial programs. 
When is this administration going to get the message that the 
Congress, I believe, is not willing to subsidize so-called 
commercial vendors at the expense of NASA's core mission of 
engineering and exploration?
    Mr. Bolden. Senator, I could not agree more with your 
position that our job is technology development and exploration 
and cutting-edge science and technology, and that's what we 
asked for in the budget. We put forth a budget that requests 
$675 million for space technology, which covers the gamut of 
what we do. It contributes to the heavy-lift launch vehicle. It 
contributes to a next-generation MPCV. It contributes to our 
science program. It will enable us to better go to Mars, both 
robotically and in human space flight.
    So we did not have a space technology line until the fiscal 
year 2012 budget. The President asked for $1.5 billion for 
space technology in the first budget that I brought to this 
Congress my first year as the NASA Administrator. So we agree 
with you that we do need to be about cutting-edge technology, 
and we're trying to do that.

                     COMMERCIAL PROVIDERS PROGRESS

    Senator Shelby. In your statement, you said that you're 
pleased, and I'll quote you, ``pleased with the steady progress 
of U.S. commercial providers in developing domestic cargo and 
crew transportation services.'' I would note that one of your 
commercial cargo providers was originally scheduled to complete 
three demonstration flights by September 2009. They have only 
completed one, and many expect the date of that second launch 
to slip again soon, as it just did in February.
    Your other cargo vendor was expected to complete a single 
demonstration flight by December 2010. That flight has not even 
been scheduled yet.
    I guess the question posed here is how much longer will 
their flights have to be delayed before you, as the 
Administrators are no longer ``pleased'' with these providers?
    Mr. Bolden. Senator, I'm confident that one of the----
    Senator Shelby. Are you still pleased with them?
    Mr. Bolden. Senator, I'm pleased with their progress. One 
of our providers, SpaceX, is scheduled to launch on the 30th of 
April, and I think----
    Senator Shelby. Do you think they will keep that date?
    Mr. Bolden. I think they will make that. The other one, 
Orbital Sciences, has a lot of things that are out of their 
control in terms of a launch facility, but I think they will be 
ready to launch sometime this summer. The big thing for us and 
them is to get the launch pad ready at Wallops so that they can 
run a main propulsion test, and then they'll be ready to fly 
their first demonstration.
    I would caution everyone to be somewhat resistant to talk 
about delays. I came to NASA in 1980 to join the astronaut 
program, and that was 2 years after the shuttle was supposed to 
have flown. I am personally thankful that we did not fly in 
1978 because we weren't ready. I worked as a member of the tile 
repair tiger team, because when we flew Columbia from its 
manufacturing facility in Palmdale, California to the Kennedy 
Space Center, it got there and a large majority of the tiles 
were missing.
    We weren't ready, and we learned a lot of things that 
caused us to delay. But when we flew STS-1, it was an 
incredible achievement.
    So I think the commercial providers are doing very well. 
They're meeting challenges that have come their way. We advise. 
We can't tell them what to do, but we have relatively good 
insight into what they're doing, and we're confident that the 
decisions they're making are prudent. We would much rather see 
them delay than to fly and fail, because we cannot use a failed 
system.

                      GOVERNMENT BUYING PRACTICES

    Senator Shelby. I'm very concerned that NASA seems to be 
abandoning its plan to abide by the Federal acquisition 
regulations (FAR) in the commercial crew program and instead 
continue to use Space Act agreements. Space Act agreements will 
provide you more flexibility, but they do so at the expense, 
some of us believe, of transparency and accountability on the 
part of the contractor. I think such agreements in this case 
are dangerous to both astronauts who might fly in commercial 
rockets and the American taxpayers who, to date, have had to 
fund them.
    You claim, Mr. Administrator, that the budget cuts made by 
this subcommittee have, quote, ``necessitated'' is your word, 
you to abandon traditional Government buying practices. I would 
note that you are currently funding four separate vendors in 
the commercial crew program, some of whom have never built a 
single piece of space hardware, and only one of whom has ever 
built hardware that carried humans.
    My question is this. Is it not possible that the answer to 
your budget issues is to fund fewer vendors? Wouldn't you 
rather have more effective Government oversight over one or two 
providers rather than less oversight over four or more?
    Mr. Bolden. Senator, there are a couple of answers to your 
question. One is, when we purchase services from the private 
companies, they will be operating under contracts that comply 
with FAR. So we won't purchase services under a Space Act 
agreement. We'll purchase services under FAR. We have chosen to 
extend our utilization of Space Act Agreements because it does 
allow us to carry hopefully more than one potential provider 
for as long as we can so that we get competition and we get the 
best product.
    In the commercial crew development program, we funded as 
many providers as we could, and it's important to understand 
the difference between the commercial crew development program 
(CCDEV), which is what we are about to end, and the acquisition 
program that we're about to enter where we buy a launch 
provider for commercial crew. CCDEV--some were looking at 
capsules, some were looking at launch vehicles. United Launch 
Alliance (ULA) was not looking at either. They were looking at 
a self-monitoring maintenance system on a vehicle. So we had 
different providers. We utilized their expertise to give us 
information and technology that we needed to put into the 
ultimate system.
    So hopefully the result from the effort and the money that 
we put into CCDEV will be, as all of you say, a final product 
from or to providers that takes advantage of all of the 
benefits that we got from the individual providers with 
individual components of the total system.
    Senator Shelby. But isn't some of the program, it seems to 
a lot of people, to be a march away from NASA--in other words, 
into the private sector and vendors--rather than what NASA has 
proven over many years to have?
    Mr. Bolden. Senator, quite the contrary. It is a march to--
--
    Senator Shelby. Explain.
    Mr. Bolden. It is a march toward the exact way that we did 
Mercury, Gemini, Apollo, the shuttle, except the acquisition 
method. With those, we bought a vehicle, and then we owned it 
and we managed it, and that's what cost us money. The 
infrastructure, the underlying cost for the space shuttle was 
$2 billion a year whether I used it or not. That's because I 
had to maintain the facilities, I had to keep the people to run 
it, I had to do everything.
    Under the commercial program, we will purchase a service. 
And I will remind everyone, Senator Hutchison mentioned, why 
couldn't we do like we did with SLS and MPCV? Because we 
previously had a robust competition in the old Constellation 
program, we got a product like Orion, and when we started 
looking at what we wanted to use for a MPCV, it made it not 
easy because we still had to go through a process of 
evaluation, independent assessment, but we were able to accept 
the Orion vehicle lock, stock, and barrel from what was in the 
Constellation program.
    But that does not say it was not chosen under competition. 
It had rigorous competition. Same thing for the SLS. It 
underwent rigorous competition, and we used that, and we were 
able to go back to the procurement people and say, look, we're 
not trying to just take something unproven. This is the result 
of rigorous competition. The way I described it, we tried to 
take the nuggets from Constellation and transition them into 
SLS/MPCV, and I think that's what we got.
    We won't know until we fly, but I think we are well on our 
way to demonstrating that the process we used there, which I 
will remind everybody was severely questioned by many--why are 
you doing it this way? Why don't you just go get another 
vehicle? We didn't think that would be prudent because we 
wanted to take advantage of the competition that had brought us 
those vehicles.
    Senator Mikulski. Senator Brown.

                   STATEMENT OF SENATOR SHERROD BROWN

    Senator Brown. Thank you, Madam Chair.

                 A HEALTHY NASA RELYING ON TEN CENTERS

    The previous administration declared 10 healthy centers and 
laid out responsibilities for each. When we sat down before 
your confirmation more than a year ago, you assured me this 
policy was no longer needed because NASA had 10 healthy 
centers. But without a 10 healthy centers policy, you're asking 
us now to give you the ability to shift funds around with no 
guarantee that the research centers or flight centers or 
specific programs will be funded at adequate levels.
    How do all of us know you have a serious commitment to 
making sure there are 10 healthy centers? Are you laying out a 
detailed plan for us so that we know that?
    Mr. Bolden. Sir, I think when you and I talked numerous 
times, I said I don't like the term ``10 healthy centers'', 
because that term implies that you've got to force a workplace 
where it may not belong. What I like is a very healthy NASA 
that relies on 10 centers with diverse skills and capabilities 
that support a healthy agency, and not individual centers.
    I think what hopefully all of you are seeing is that we are 
trying our best to make sure that every center that is 
presently a member of the NASA family gets an adequate share of 
the work that we are doing in the three principal mission areas 
of aeronautics, human space flight, and science.
    If you look at Glenn, for example, Ray Lugo probably would 
admit he has a significant share, if not the lion's share, of 
the technology development funds. Even though the program may 
not be run out of Glenn, the money is being spent through 
Glenn, and there's a big difference between where a program is 
housed and where the money is being spent.
    Glenn is a vital center for us not only for human space 
flight, but they are the heart and soul, along with Dryden and 
Langley, for aeronautics research. What we're doing right now 
to support DOD and even commercial aviation, a lot of that is 
being done out of Glenn, whether it's icing tests, or they're 
the major center for rotary research. So it's very helpful.
    Senator Brown. I don't think any of us think that the issue 
is forcing work at any one of these centers.
    I have a couple of comments about aeronautics. Aeronautics, 
the first ``A'' in NASA is aeronautics, before the ``S'' for 
space. NASA is requesting $551 million for aeronautics, less 
than last year, one-half of what's authorized. Put that aside 
for a minute.
    But sort of along the lines of Senator Cochran's comments 
about the Stennis Center, from your comments I'm concerned that 
NASA is out-sourcing hundreds of millions of dollars for 
research and development at the Space Flight Center when the 
research centers can do this work. Why does this business model 
no longer seem so workable to do this at the centers, 
especially a research center like NASA Glenn?
    Mr. Bolden. Senator, I'm not sure that we're not following 
the model that utilizes the skills at the individual centers. I 
may misunderstand your question. I think we are utilizing the 
skills at the centers, and we redistribute work such that it 
goes to the strongest center. We sometimes use people from one 
center to do work at another, and we either detail them there 
or we let them do the work that belongs to another center in 
their home center. So maybe I don't understand your question.

                         PLUM BROOK TEST CENTER

    Senator Brown. I'm not sure I agree with that, but let me 
shift, though, because I just have a couple more minutes.
    About Plum Brook, I appreciate, first of all, your 
correcting some of our House counterparts when they refer to 
Plum Brook as a test stand. As you know, it's not a test stand. 
It's a one-of-a-kind test center. I'm looking for what you can 
tell us NASA can do to better utilize those facilities. For 
instance, one example, the Europeans want to use Plum Brook. I 
understand NASA headquarters seems to be holding this up. Why 
wouldn't we jump at this opportunity for the ESA to want to use 
Plum Brook and its terrific facilities?
    Mr. Bolden. Senator Brown, I'll have to get back to you. I 
am not aware of us holding this up--if, in fact, ESA is asking 
to test a vehicle at Plum Brook, I'm not aware of what we're 
doing to disallow that. So I will take that question for the 
record and get back to you.
    [The information follows:]

                        Plum Brook Test Facility

    The National Aeronautics and Space Administration (NASA) 
headquarters issues with the European Space Agency (ESA) test agreement 
have been worked fairly quickly and involved the use of the facility by 
a foreign entity and a question regarding whether the funding for the 
modifications to the test facility represented an augmentation of the 
NASA budget. Both of those issues were worked early in the year, and at 
this point we are awaiting a decision from ESA.

    Senator Brown. Okay. Our understanding is there has been a 
delay. We don't know why. It's a significant proposal, and we 
will follow up with you, then.
    Mr. Bolden. Okay. Senator, that would be in opposition to 
my stated direction to everybody that we should find people to 
put in our facilities.
    Senator Brown. Okay. Good, good.
    Mr. Bolden. I don't care where they come from.
    Senator Brown. Good to hear. Thank you.
    Thank you, Madam Chair.
    Senator Mikulski. Senator Hutchison.

                             PRIORITY GOALS

    Senator Hutchison. Mr. Administrator, as I mentioned, I'm 
just waiting for the--I'm going to ask you a question, you're 
not going to answer it, and we're going to be where we are and 
we're going to settle this one-on-one, I know. But I'll just 
ask----
    Mr. Bolden. Senator.
    Senator Hutchison. I'll try my best. I talked about and you 
acknowledged that we set three priority goals, and you fully 
funded one. You have now gone 100 percent over on one and cut 
the other, the third priority, by virtually the same amount 
that you went over on the second priority. So you can imagine 
why we would think that you are cutting the Orion and the SLS 
in favor of commercial crew.
    What I would hope is that we could come to the joint goals 
and all work together for commercial crew, but not at the 
expense of Orion and SLS.
    One thing that you mentioned you're funding at a 21-percent 
increase this year is technology. Why is it that you feel so 
compelled to cut the future, which is SLS and Orion, in favor 
of the immediate, which is commercial crew, as we acknowledge? 
Why not keep the three priorities, keep the faith with the 
Congress, and help us feel like we're all going in the same 
direction?
    Mr. Bolden. Senator, I do believe that we are doing our 
best to keep faith with the Congress. When we agreed upon the 
three priorities, we said we were going to fund SLS and MPCV 
and we were going to comply with the schedule that we had laid 
out for everyone. I provided a list to the subcommittee of 
achievements with both SLS and MPCV to date. Some of them are 
well ahead of where we expected to be.
    [The information follows:]
          Space Launch System/Orion Multi-Purpose Crew Vehicle
    The Orion Multi-Purpose Crew Vehicle (MPCV) and Space Launch System 
(SLS) Programs continue to meet milestones on schedule.
    Recent accomplishments of note for Orion MPCV include:
  --Key Decision Point-A Authorization Memo was signed by the Agency 
        Project Management Council on February 28, 2012. This provided 
        official approval for the Orion Program to proceed from the 
        pre-formulation phase into the design, development, test, and 
        evaluation (DDT&E) phase.
  --The Orion Formulation Authorization Document was approved by Human 
        Exploration and Operations Mission Directorate on April 2, 
        2012.
  --Arrival of first Exploration Flight Test-1 (EFT-1) flight hardware 
        at the Kennedy Space Center's Operations and Checkout (O&C) 
        facility (2 SM longeron). This milestone signifies confidence 
        that the EFT-1 vehicle will soon begin its ground test 
        campaign.
  --Transfer of Crew Module (CM) Assembly Structure from Denver (post-
        Ground Test Article [GTA] use) to O&C.
  --Transfer of the CM used for the Pad Abort-1 (PA-1) test from O&C to 
        Vehicle Assembly Building (VAB) for public display (opens space 
        in O&C for EFT-1 production and GTA arrival).
  --CM barrel delivered to NASA Manufacturing Assembly Facility (MAF). 
        CM2 (Barrel-to-Aft Bulkhead) and CM1 (Aft Bulkhead-to-Cap) 
        welding completed.
  --Orion has also successfully completed 22 major hardware tests from 
        June 2011 through May 2012, including 4 parachute drops, 9 
        hydro impact splash downs, 6 vibro-acoustic tests, and 3 
        avionics simulations.
    SLS has made substantial progress since the program entered 
formulation in November 2011, with the following notable 
accomplishments:
  --Systems Requirements Review/Systems Definition Review now underway 
        to establish baseline vehicle requirements before entering 
        detailed preliminary design.
  --Integrated acquisition teams in place and negotiations underway to 
        definitize contracts with stages, engines, and boosters 
        contractors.
  --Design loads analysis and wind tunnel tests incorporating Orion 
        MPCV in work.
  --Ten tests as of May 2012 (for a total of more than 1,000 seconds of 
        total run time) of the J-2X engine on the A-2 test stand at the 
        Stennis Space Center. Engine 10001 has since been fitted with a 
        clamshell for further engine characterization starting in May.
  --As of May 2012, 13 powerpack tests had been completed, and J-2X 
        powerpack series #2 were underway on the A-1 test stand at the 
        Stennis Space Center.
  --All RS-25 Space Shuttle main engines and associated ground support 
        equipment transferred from the Kennedy Space Center to the 
        Stennis Space Center for future testing and integration into 
        Core Stage.
  --As of May 2012, there had been three demonstration firings of the 
        five segment solid rocket motor design to be used for the EM-1 
        and EM-2 flights in 2017 and 2021.
  --Completed 24-inch motor firing test on March 14, 2012.
    Accomplishments for Orion MPCV and SLS are updated monthly at: 
http://www.nasa.gov/exploration/systems/mpcv/orion_reports_archive.html 
and http://www.nasa.gov/exploration/systems/sls/sls_highlights.html

    Mr. Bolden. So while I know you're talking about dollars, 
I'm actually talking about accomplishments, getting us to a 
2014 launch date for Orion that Lockheed Martin wants to do, an 
exploration test flight. They're going to make that. So 2 years 
from now, we're going to fly Orion. That was not even in our 
program before. I think at the rate we're going right now, the 
funding profile that we have, while not optimal, will get us to 
a 2017 first un-crewed flight of SLS and MPCV combination. That 
will be a first-generation SLS/MPCV, and then no later than 
2021 we will see a crewed mission on SLS/MPCV.
    Additional funds would help the 2021 date because we could 
pull some things forward, we could reduce some risk, but it 
won't affect the 2017 launch date, the first un-crewed mission. 
So I think we have put funds against SLS and MPCV to get to the 
objective, to meet the objectives that we agreed to with the 
Congress.
    While commercial crew and cargo is not a priority, so to 
speak--it is not one of the priorities agreed upon by the 
Congress and the administration because there are only three--
but commercial crew and cargo are vital for me to be able to 
live up to my promise to you on ISS. Without an American 
capability to supply both cargo and crew to ISS, the gap is 
going to continue to increase. I am going to continue to rely 
on the Russians to provide transportation for both cargo and 
crew, and I'm not sure that I can adequately enhance ISS the 
way I want to do it.

                       ORION AND SLS AUDIT STUDY

    Senator Hutchison. Mr. Bolden, when you thoroughly studied 
Orion and SLS, you studied it in NASA, and then you studied it 
outside of NASA. You had an outside group that you were adamant 
had to make the final decision, and you paid a lot of money for 
that further independent study. And, probably what I would 
consider to be 1 year late, you finally got the report back 
that said if the assumptions are correct for the next 3 to 5 
years, the budget will be sufficient to make the goals for 
Orion and SLS a reality.
    And yet the very next year, we have you coming forward 
cutting that budget that was the basis of your very sought 
after and required outside audit study before you would move 
forward. So here we are in what looks like the stepping back 
from what your outside study showed was necessary so that 
you're going to be able to come in next year and say, ``Gee, 
you know, we didn't get that funding that was the basis of that 
study, and so we probably can't do Orion and SLS'', which is 
the kind of rhetoric we have heard in the past.
    So I just wonder why you would be so obvious in cutting the 
Orion and SLS budget when you staked the whole credibility of 
going forward on the study that said we had to keep these 
assumed levels of spending.
    Mr. Bolden. Senator, it is my hope that before you leave 
the Congress, NASA will be able to show you where it's not 
going to cost us as much as is presently budgeted right now to 
complete SLS and MPCV because the technologies that we're 
developing will reduce the cost, that we will move to lighter-
weight tanks, we will move to composite tanks. The original 
estimates we gave everybody were based on current state-of-the-
art technology of the day. If we stay with that, then I'm not 
being responsible.
    So my hope is--and we have to live within the budget that 
you gave us, and that budget also has to provide funds for a 
wedge for additional things that will go with SLS and MPCV to 
make it a true exploration system. So that money has to come 
from within. So we are trying our best, as Senator Shelby and 
Senator Cochran mentioned, and as all of you have, we're trying 
to call upon our best technologists both in the agency and 
academia and in industry to help us get to the point where we 
are much more efficient in the development of our vehicles, 
that they are much better than the currently envisioned, and 
that we can get the job done that you set. We will not change 
the date----
    Senator Hutchison. Mr. Bolden, you are so insistent that 
you're living within the budget that we gave you for Orion and 
SLS. But oddly, you're going $300 million more than the 
authorized level for commercial, and you're saying on Orion and 
the SLS you're going to have new technology that's going to 
bring the cost down, so everything is going to be fine.
    But on the other hand, you now are looking at three or four 
companies that you're subsidizing on the commercial crew side, 
so there doesn't appear to be any kind of future advantage for 
technology like you're proposing that you're going to have for 
the Orion and SLS. It doesn't seem to make any sense that 
there's a way forward that you can meet all of our goals with 
integrity by subsidizing competitive commercial crew 
enterprises.
    Mr. Bolden. Senator, I have to re-emphasize the fact that 
we are making progress, tangible progress on SLS and MPCV. 
We've completed, I don't want to read through the list, but 
we've completed water drop tests on Orion. We have actually 
completed risk reduction. We've had an industry day on the SLS. 
We have taken steps that will reduce the risks on the vehicle 
itself as we do it. We have transferred main engines over to 
the Stennis Space Center for testing after modifications.
    So we are doing everything that we can. And I will take----
    Senator Hutchison. Is this going to be $170 million in 
savings? Is that what you're saying?
    Mr. Bolden. No, ma'am. But I will----
    Senator Hutchison. Well, that's what you're cutting out of 
this year's budget.
    Mr. Bolden. I will take one thing for the record. I think 
that you and I are disagreeing on what the fiscal year 2012 
appropriation amount really was, and I will take it for the 
record. But I think a check of the budget will show that the 
fiscal year 2012 appropriation is actually in excess of what we 
submitted as needed based on the independent cost assessment, 
but I will take that for the record.
    [The information follows:]

          Space Launch System/Orion Multi-Purpose Crew Vehicle

    For fiscal year 2012, the Congress appropriated $1.943 billion for 
Space Launch System and associated ground systems, $15 million more 
than the Independent Cost Assessment (ICA) profile when adjusted to 
include civil service labor. Also for fiscal year 2012, the Congress 
appropriated $1.2 billion for the Orion Multi-Purpose Crew Vehicle, 
$181 million more than the ICA profile when adjusted to include civil 
service labor.

    Mr. Bolden. I think the fiscal year 2012 funding for SLS/
MPCV exceeded what we said we would need in the independent--
substantiated by the independent cost assessment. I know that 
the fiscal year 2012 budget was greatly reduced from what we 
said we would need in order to be able to close the gap with 
commercial crew. And so we're trying to get to the balance that 
you insist upon so that we have a commercial capability to 
supply ISS and keep the gap from growing there.
    Senator Hutchison. Thank you.
    Mr. Bolden. We have not changed the delivery dates on SLS 
and MPCV. In fact, we have improved them somewhat by buying 
down risk with the test, the demonstrated activities that we've 
done to date.
    Senator Hutchison. Thank you, Madam Chair.
    Senator Mikulski. Mr. Administrator, as you can see, there 
are a lot of yellow flashing lights, and even skepticism about 
the amounts that are in the priorities.
    I'm going to go to another round, just very quickly, but 
let me say this.
    First of all, this $17 billion-plus budget request is 
pretty much the same as what it was when President Clinton and 
Vice President Gore were in the White House. So though we ask 
for greater responsibility, though we've had some severe 
challenges, even an accident, we are still pretty much in the 
same money that we were 15 years ago. I know of no other 
Federal agency that has a major international presence that has 
been kept at that level. So I think we all have to be realistic 
here about expectations of what we want NASA to do.
    If we had followed the Norm Augustine recommendations for a 
balanced space program and a steady percentage of increase, and 
Mr. Augustine did that during the administration of President 
Bush, the elder, who we worked with very closely on many of 
these matters, you would be somewhere between $22 and $24 
billion. But we're doing things in a different way, and lessons 
learned.

                       JAMES WEBB SPACE TELESCOPE

    So let me just say a concluding remark about JWST. I 
appreciate the fact that the NASA administration, and also 
Northrop Grumman, is taking very seriously our insistence on 
keeping the project on time, on line, and meeting its 
objectives, and we're going to count on you to continue to do 
that. I know you've dispatched some of your most trusted NASA 
leaders to be able to oversee it from the NASA area.
    I just want to say this, and I've said this to the others 
involved in JWST that don't think this is like the Hubble.
    Mr. Bolden. Yes, ma'am.

                       COMMERCIAL CARGO AND CREW

    Senator Mikulski. If anything gets screwed up, I can't pull 
a rabbit out of the hat. I don't have a rabbit, and I don't 
have a hat. So we need to do that.
    Now, let's go to commercial crew. The questions have been 
extensively asked, but here is my question. I happen to support 
the commercial endeavor for both cargo and crew. I think it's 
bold, I think it's promising, but I'm concerned that it's 
behind schedule.
    My concern is that now the best-case scenarios about the 
launch for these is 2017. We've extended the life of ISS to 
2020. Isn't this a hell of a lot of money for a 3-year effort? 
Could you comment on that?
    Mr. Bolden. Senator, I will comment, and I am not making a 
promise to anyone because I'm not in a position to make this 
commitment, but in anticipating what we can do with ISS, the 
international partners--and that's the 19 member nations of the 
ESA, Japan, Canada, the United States, and Roscosmos and 
Russia--have all been engaged in engineering estimates of how 
long can we fly ISS, and we have all agreed that ISS can be 
flown to at least 2028.
    So when I talk about the life of ISS, I don't limit it to 
2020. To fly it beyond that, as we all learned after President 
Obama said he wanted to fly it until at least 2020, beyond the 
2016 original date for termination, requires approval of all 
the international partners. But all of them are on the record 
saying that we know we can fly ISS until 2028, and most of them 
are on the record saying they would like to utilize it beyond 
that.
    So what NASA wants to do is get a commercial capability, 
get a U.S. capability in place as soon as possible so that we 
can enhance its utilization, can make it a true national 
laboratory, as Senator Hutchison has insisted, and fly it as 
long as we can, support it as long as we can. I don't foresee 
us, just because 2020 arrives, saying that's the end of ISS. To 
me, that would make no sense. We should fly it as long as the 
nations feel there is a need. I think all of us believe that if 
we're really going to do a robust exploration program, there 
will be a long-term need for a micro----
    Senator Mikulski. As you can understand. First of all, it 
cost us $50 billion.
    Mr. Bolden. So beyond 3 years----
    Senator Mikulski. It cost us $50 billion to build ISS.
    Mr. Bolden. $100 billion.
    Senator Mikulski. And a lot of blood, sweat, and tears. As 
you know, we had some melancholy events along the way. Now we 
have ISS, and we have great international partners who signed 
up to go with the United States. They were kind of a coalition 
of the willing in space. We need to use that ISS.
    Mr. Bolden. Yes, ma'am.
    Senator Mikulski. We need to justify it to the taxpayer, 
and we need to show it in the scientific community. So we've 
got to get up there.
    So let's start with cargo. I understand that SpaceX expects 
to--we need rockets in the air.
    Mr. Bolden. Yes, ma'am.
    Senator Mikulski. Again, it's cargo, it's not people. When 
do you think SpaceX will launch?
    Mr. Bolden. Weather and everything else considered, I think 
they will be able to hold to their April 30 launch date.
    Senator Mikulski. So it will be April or the first week in 
May, depending on weather.
    Mr. Bolden. Yes, ma'am.
    Senator Mikulski. And when is Orbital going to launch at 
Wallops?
    Mr. Bolden. Orbital's best estimate right now--and I 
promised you, I need to give you concrete numbers. Orbital's 
best estimate right now is, if the Mid-Atlantic Regional 
Spaceport (MARS) can finish the launch pad----
    Senator Mikulski. MARS, for my colleagues and the record--
--
    Mr. Bolden. I'm sorry. MARS is the controlling entity. They 
own the launch pad at Wallops. They are building it for the 
State of Virginia. It's sort of like Space Florida and Florida. 
They contracted with a company to actually do the building. 
When you and I were out for the inauguration of the horizontal 
processing facility, we took a walk up on the launch pad and we 
both felt good because the physical structure is----
    Senator Mikulski. But I want to feel good now.
    Mr. Bolden. Yes, ma'am.
    Senator Mikulski. So where are we?
    Mr. Bolden. It is not ready. But we have brought people up 
from the Kennedy Space Center, from Langley, from Marshall, 
from Stennis to help them with technical expertise to try to 
make sure that they can complete it on a date certain, and that 
date certain I have to provide to you, and that I'll have to 
take for the record.
    [The information follows:]

                    Mid-Atlantic Regional Spaceport

    The Mid-Atlantic Regional Spaceport Launch Pad 0A at Wallops Flight 
Facility is scheduled for completion and turnover to Orbital Sciences 
Corporation (OSC) in June-July 2012. OSC's Antares launch vehicle 
maiden test flight is scheduled for late summer, with the demonstration 
mission to the International Space Station scheduled by end of 2012.

    Senator Mikulski. Well, I'm very frustrated by this.
    Mr. Bolden. As am I.
    Senator Mikulski. Because there was much promised, and the 
launch pad, it was going to be a new day for Spaceport Wallops. 
This offer was promised for not only a return to ISS, but other 
launch capabilities that would serve our national interest, 
which we don't have to elaborate on here. And I am puzzled and 
perplexed that for the last 8 weeks I keep hearing that there's 
a problem with the launch pad, but I don't hear solutions. What 
I hear is that you've dispatched people, but I don't hear a 
solution, and we need to hear a solution.
    Mr. Bolden. Yes, ma'am. And I will bring that to you. I 
have had discussions with Mr. Bill Gerstenmaier, who heads our 
human exploration operations at Mission----
    Senator Mikulski. But I'm directing these comments also to 
MARS and to the people in charge of that, that they've got to 
get it going.
    Mr. Bolden. Yes, ma'am.
    Senator Mikulski. Because I think there is growing 
frustration and skepticism about this, and yet we hear that the 
rockets are ready, everything is ready. And so we've got to 
start saying, is this endeavor a go? The clock is ticking.
    Mr. Bolden. Yes, ma'am.

                     SCIENCE MISSIONS IN THE FUTURE

    Senator Mikulski. This, then, goes to my last question with 
science. We feel that with the JWST, we are continuing to 
secure America's pre-eminence in astronomy and astrophysics, 
that it is the next generation of Hubble, and we, who have the 
Space Telescope Institute in Maryland, are so proud of not only 
the Hubble but the fact that Dr. Reese of the Space Telescope 
Institute and the Hopkins faculty has won a Nobel Prize.
    Much is being said about American exceptionalism, and we 
believe that it is in these endeavors that we have really 
demonstrated that. So we need that, but we need to look ahead 
also to what is the science today and what is the science of 
the future, and what can we afford. So the people have to make 
decisions. We make decisions about budgets, but people make 
decisions about careers.
    So right now, the scientific community is concerned about 
where are we heading with small-, medium-, and large-size 
science missions in the future. Based on the National Academy 
of Sciences--not only Senator Barr or Senator Kay Bailey 
Hutchison or any of us here, but the National Academy--what is 
in this appropriations request that lays the groundwork for 
future recommendations in things like dark energy, 
astrophysics, heliophysics, and Earth science? Or are we in 
such an age of frugality that we aren't going to make those 
investments?
    Mr. Bolden. Senator, we are going to continue to make those 
investments. People talk about flagship missions. Flagships are 
something that are of such importance to science, they answer 
the most challenging questions, and NASA has not given up on 
flagship missions. We don't have a new flagship in place, but I 
have to remind everyone that JWST is a flagship mission that we 
are going to launch in 2018. The Mars Science Laboratory, 
Curiosity, which is on its way to Mars right now, is a flagship 
mission which we launched in November and will land on Mars in 
August of this year. SLS/MPCV in the area of human exploration 
is a flagship mission.
    Senator Mikulski. You see, that's my whole point. There we 
are with flagship. We spend a lot of our time keeping it 
focused and on line because it continually comes to us with 
underestimates. So then we have the flagship. So there we are, 
and I'm not minimizing their significance, but they're the 
Santa Marias. But there's a whole group out there that wonders 
about the Ninas and the Pintas, and are we so busy bailing out 
the Santa Marias, we don't get to the Ninas and Pintas.
    Mr. Bolden. Senator, we have Ninas and Pintas on the way, 
as a matter of fact, and what we have been able to do with the 
Ninas and Pintas, something like Juno, Gravity Recovery and 
Interior Laboratory (GRAIL), now Ebb and Flow, and some of the 
other medium-class or small-class science missions that are 
underway or in work, MAVEN for example, going to Mars to 
measure its upper atmosphere, these missions which have come 
about post-2009-ish or so, where we started utilizing a policy 
of joint confidence-level assessments where we looked at cost 
and schedule, and we are now holding programs to cost and 
schedule in a way that we were not able to do before.
    Juno is on its way to Jupiter, on cost, on schedule. GRAIL, 
Ebb and Flow, are at the Moon doing science, on cost, on 
schedule. Suomi National Polar-Orbiting Partnership, which we 
produced----
    Senator Mikulski. Those are underway. So that----
    Mr. Bolden. MAVEN is in work. MAVEN is scheduled to launch 
in 2013. It is currently on cost, on schedule.
    I would even go so far as to say, while JWST is a flagship 
and it started out in bad shape, I am very proud to say that 
since we restructured JWST and re-planned it and we are now 
under new management, we hung a new shingle, JWST is on cost 
and on schedule.
    Now, that is absurd to say that for a mission that is 
billions of dollars over what the original assessment was. But 
since we worked with your staff and you and we made a promise 
to you that we were going to deliver, we have done so. We are 
on cost and on schedule, in some cases ahead of schedule with 
JWST. We are doing things differently than the way we used to 
do it.
    We have to deliver. We know that. Or otherwise we perish.
    Senator Mikulski. Well, and so do the contractors.
    Mr. Bolden. Yes, ma'am. Anyone who thinks that NASA can 
make all this happen without our incredibly valuable 
contractors just doesn't know how we do business. We spend 85 
percent of the taxpayers' money going out to the contractors, 
and so we have to hold their feet to the fire. I can point to 
missions now where I think we are holding their feet to the 
fire. They understand, because of people like you who have 
brought them in and said, okay, I don't have another hat, and I 
don't have a rabbit, I think they understand what you've told 
them, and they are performing.
    We're on the way to launching a replacement for the 
Orbiting Carbon Observatory, OCO-2. Right now, that's on cost. 
And OSIRIS (Origins-Spectral Interpretation-Resource 
Identification-Security-Regolith Explorer--OSIRIS-REx)----
    Senator Mikulski. I think we understand that.
    Mr. Bolden. Yes, ma'am.
    Senator Mikulski. Well, thank you for that answer.
    Mr. Bolden. Yes, ma'am.
    Senator Mikulski. Senator Hutchison.
    Senator Hutchison. No further questions.
    Senator Mikulski. So, Mr. Administrator, we thank you for 
your testimony. I think Senator Hutchison and I, in thanking 
you, we want to thank really all the men and women who work at 
the NASA centers, the contractors who support them, and also 
very important allies that participate with us in these very 
important projects. We view Canada, Japan, who itself is facing 
some challenges with their own budget because of the natural 
disaster--we treasure the relationship with Japan both in 
space, science, and in national security.
    So we all need to work together and keep those Santa Marias 
afloat and make sure we have the Ninas and the Pintas, all of 
which we can afford. And we wouldn't mind the Navy's budget 
either.
    So, having said that----

                     ADDITIONAL COMMITTEE QUESTIONS

    Mr. Bolden. Senator, I appreciate that. I do want to take 
an opportunity to congratulate you on the milestone that you 
yourself achieved this past weekend. That is something worthy 
of all of our applause for you.
    And, Senator Hutchison, I do want to thank you again.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

          Questions Submitted by Senator Kay Bailey Hutchison

                             SEQUESTRATION

    Question. At each of our hearings this year each department has 
been asked about the impact of the budget sequestration might be. As 
National Aeronautics and Space Administration (NASA) budget already has 
a cut as part of the fiscal year 2013 budget request, and several 
programs are being reduced to the bare minimum needed to maintain 
schedule, the impact of sequestration could cause mission schedules to 
slip and when that happens, increased costs inevitably follow.
    What will the overall impact be to the agency?
    Answer. NASA has not initiated planning for sequestration and fully 
expects that the Congress and the administration will enact balanced 
deficit reduction legislation and thereby avoid the need for a 
sequestration. If necessary, the administration will be addressing 
important technical questions concerning a sequestration and NASA 
cannot speculate at this time the size or effect of sequestration.
    Question. If sequestration requires reductions to programs at NASA, 
what will NASA's rationale be for applying funding reductions to its 
programs? Will NASA reduce every program, project and activity by the 
percentage, and if not, justify the agency's decision to spare some 
programs over others from the effects of a funding reduction?
    Answer. NASA has not initiated planning for sequestration and 
cannot speculate at this time the size or effect of sequestration.

                            ORION AS BACKUP

    Question. The NASA authorization specifically identifies space 
launch system (SLS) and Orion to be used as a backup to commercial 
crew. This was done in case the primary providers are unable to fulfill 
the need for International Space Station (ISS) support. You have 
previously stated that commercial crew is plan A for reaching the ISS, 
and it is also plan B because NASA would like to subsidize more than 
one company for their development and then pay them again to ride to 
the space station. At the same time, if they cannot deliver, NASA will 
have to scramble to determine a rocket configuration for Orion to do 
the job, or continue paying the Russians for seats.
    Does NASA have a plan, if the need arises, to exercise the Orion 
backup capability?
    Answer. The Orion Multi-Purpose Crew Vehicle (MPCV) will have the 
capability to provide an alternate means of delivery of crew and cargo 
to the ISS. Although funds are not currently being spent to enable this 
capability, this capability will not be precluded. This would be a 
highly inefficient use of the SLS and MPCV designs, so NASA would only 
develop the capability ``in the event other vehicles are unable to 
perform that function'' per the NASA Authorization Act of 2010 (Public 
Law 111-267).
    Question. If a plan exists, or even if one does not, please provide 
an estimate for the cost and timeline that would be needed for Orion to 
take crews to the ISS in case of commercial crew being unable to 
deliver crews to the ISS as defined in section 302(c)(1)(D) of Public 
Law 111-267.
    Answer. SLS and Orion MPCV are expected to execute the system's 
first launch in 2017 and be crew capable in 2021. SLS is a heavy lift 
launch vehicle and has payload capability far and above that which is 
necessary to support ISS crew rotation and resupply activities; 
therefore, launching an SLS for ISS-related activities would be a 
highly inefficient use of the system that is simply not cost-effective. 
However, in an emergency, the SLS could be used for low-earth orbit 
(LEO) operations. In addition, the Orion MPCV is a crew vehicle that is 
primarily designed for deep space exploration and, if needed for an 
emergency, could function as a backup vehicle for the ISS crew. The 
current Orion design is specifically designed and tailored for deep 
space exploration and a high-speed re-entry to Earth, which includes 
systems that are not necessary for LEO missions. Launching the Orion 
MPCV capsule for use in LEO would also be an inefficient use of a 
robust system intended for other purposes.
    NASA has assessed the content changes needed to perform ISS 
missions as a backup, including required technical changes and the 
associated cost and schedule. The additional Orion MPCV costs for the 
ISS mission would be at minimum $300 million. Additional cost would be 
incurred if schedule is critical.

                       SHUTTLE RETIREMENT PAYMENT

    Question. As part of the close out of the shuttle program, NASA has 
a one-time payment to the contractor for their employee retirement 
plan. This payment was agreed to by NASA when the United Space Alliance 
(USA) was created to service the orbiters for NASA. Last year, the 
subcommittee was assured that the amount funded in last year's 
appropriations bill was the amount necessary to make this payment. 
However, since that time the amount has changed and the payment will 
likely be higher than NASA anticipated when funds were appropriated for 
this payment.
    Can you tell us what the current payment is anticipated to be and 
which programs NASA intends to look to in order to make up the 
difference if necessary?
    Answer. Our latest estimate is that termination of USA employee 
retirement plans will cost between $535 to $555 million. This estimate 
could change once the formal termination is approved; however, we do 
not anticipate that it will greatly change. The difference between what 
was appropriated, $470 million, and the final cost will be covered 
within the Space Shuttle Retirement and Transition line of the Space 
Operation account.

                     SANTA SUSANA FIELD LABORATORY

    Question. I understand that NASA is involved in the cleanup of a 
former rocket engine test facility in Ventura County, California--
called the Santa Susana Field Laboratory (SSFL). In December 2010, NASA 
and Department of Energy signed administrative orders on consent 
(AOC(s)) with the State of California that obligated the Federal 
parties to cleanup portions of the site.
    What level of cleanup did NASA commit to in the AOC, and is that 
cleanup level required by Federal or state law?
    Answer. The AOC calls for a cleanup to ``background''. Per AOC 
section 2.1, ``[t]hat is, at the completion of the cleanup, no 
contaminants shall remain in the soil above local background levels, 
with [certain specific exemptions].''
    Federal law required cleanup of sites contaminated any hazardous 
materials. NASA entered into the AOC as part of an out of court 
settlement with the Department of Toxic Substance Control (DTSC). Under 
the terms of the AOC, compliance with the AOC ``shall constitute NASA's 
full and complete compliance with all applicable provisions of Chapters 
6.5 and 6.8 of Division 20 of the California Health and Safety Code 
(the California Hazardous Waste Control Law, sections 25100 et seq. of 
that Code, and the California Hazardous Substances Account Act, 
sections 25300 et seq. of that Code), including specifically, but not 
limited to, California Senate Bill 990 (Stats. 2007, c. 729), which has 
been codified as section 25359.20 of the California Health and Safety 
Code, but only with respect to the application of these provisions to 
radiologic or chemical contamination of soil at the Site or any 
contiguous radiologic or chemical contamination of soil emanating from 
within Area II and the portion of Area I owned by NASA, within or 
without the SSFL boundaries, identified by DTSC as part of the 
investigation of chemical contaminants.''
    The AOC also requires NASA in section 4.2.3 that ``NASA shall 
conduct all activities under this Order in a way that will promptly 
comply with the requirements of NEPA.''
    Question. How does this level of cleanup compare to cleanup levels 
at other sites that NASA is involved in?
    Answer. The final cleanup levels (what is meant by background for 
the proposed action) have not been specifically established by the 
State. In order to conduct the required National Environmental Policy 
Act (NEPA) evaluation of the proposed AOC cleanup and reasonable 
alternatives, NASA has developed estimates based on the background 
levels determined in 2005 along with the latest laboratory reporting 
limits used by the State. The chart below summarizes the proposed AOC 
cleanup and three other standard land-use scenarios under other cleanup 
programs.

                                                 PROPOSED ACTION
----------------------------------------------------------------------------------------------------------------
                                                                   Alternative 1   Alternative 2   Alternative 3
                                                    AOC cleanup    (Residential)   (Industrial)   (Recreational)
----------------------------------------------------------------------------------------------------------------
Removal volume (cy).............................         502,000         182,000          92,000          58,000
Estimated cost..................................    $210 million     $80 million     $40 million     $25 million
Truckloads required.............................          26,421           9,579           4,842           3,052
Duration (months) assuming 12 trucks per day....             100              36              18              12
----------------------------------------------------------------------------------------------------------------

    Question. If the cleanup is not required by law, and it differs 
from cleanups at other sites, why is NASA making this commitment?
    Answer. NASA entered into the AOC as part of an out-of-court 
settlement with DTSC. Cleanup of contaminated sites with hazardous 
materials is required under Federal law, specifically the Resource 
Conservation and Recovery Act (RCRA) and the Comprehensive 
Environmental Response, Compensation Liability Act (CERCLA). NASA's 
cleanup actions are completed under these authorities or under State 
authorized RCRA or CERCLA programs.
    Question. Under the AOC how many cubic yards of soil will need to 
be removed?
    Answer. The final cleanup levels have not been specifically 
established by the State. However, based on engineering estimates to 
meet levels required by section 2.1 of the AOC limits and assuming 
excavation and offsite disposal, the current estimate would be 
approximately 502,000 cubic yards. This estimate is based on background 
levels determined in 2005 and current laboratory reporting limits.
    Question. What is NASA's cost estimate for complying with the AOC? 
How much more will the SSFL AOC cleanup cost compared to what it costs 
NASA to do the cleanup it does at other sites?
    Answer. The final cleanup levels (what is meant by background for 
the proposed action) have not been specifically established by the 
State. In order to conduct the required NEPA evaluation of the proposed 
AOC cleanup and reasonable alternatives, NASA has developed estimates 
based on the background levels determined in 2005 along with the latest 
laboratory reporting limits used by the State. The chart below 
summarizes the proposed AOC cleanup and three other standard land use 
scenarios under other cleanup programs.

                                                 PROPOSED ACTION
----------------------------------------------------------------------------------------------------------------
                                                                   Alternative 1   Alternative 2   Alternative 3
                                                    AOC cleanup    (Residential)   (Industrial)   (Recreational)
----------------------------------------------------------------------------------------------------------------
Removal volume (cy).............................         502,000         182,000          92,000          58,000
Estimated cost..................................    $210 million     $80 million     $40 million     $25 million
Truckloads required.............................          26,421           9,579           4,842           3,052
Duration (months) assuming 12 trucks per day....             100              36              18              12
----------------------------------------------------------------------------------------------------------------

    Question. Does cleanup under the AOC need to comply with NEPA?
    Answer. NEPA is a statutory requirement (42 U.S.C. 4321 et seq.) 
and, as such, is reflected as a requirement of the AOC. Under the terms 
of the AOC: ``4.2.3. NASA shall conduct all activities under this Order 
in a way that will promptly comply with the requirements of NEPA''.
    Question. Will compliance with NEPA require consideration of all 
land-use and cleanup alternatives?
    Answer. Section 4.2.3 of the AOC requires that ``NASA shall conduct 
all activities under this Order in a way that will promptly comply with 
the requirements of NEPA.'' NASA is obligated to evaluate all 
reasonable alternatives or a range of reasonable alternatives in enough 
detail so that the public can compare and contrast the environmental 
effects of the various alternatives. NASA is currently conducting an 
environmental review of the impacts of the AOC and will consider land 
use and cleanup alternatives consistent with NEPA's statutory and 
regulatory obligations.

                         CONCLUSION OF HEARINGS

    Senator Mikulski. Thank you.
    If there are no further questions, Senators may submit 
additional questions for the official record. We'll request 
NASA's response within 30 days.
    This is the subcommittee's final regularly scheduled budget 
hearing. However, the subcommittee reserves the right to hold 
others should the need arise.
    And the subcommittee stands in recess, subject to the call 
of the chair, with an anticipated mark-up of our bill sometime 
in mid-to-late April.
    [Whereupon, at 3:20 p.m., Wednesday, March 28, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
